<html>
<title> - [H.A.S.C. No. 111-91] THE U.S. SECURITY RELATIONSHIP WITH RUSSIA AND ITS IMPACT ON TRANSATLANTIC SECURITY</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



                         [H.A.S.C. No. 111-91]
 
                     THE U.S. SECURITY RELATIONSHIP

                     WITH RUSSIA AND ITS IMPACT ON

                         TRANSATLANTIC SECURITY

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             JULY 30, 2009


                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13



                  U.S. GOVERNMENT PRINTING OFFICE
53-397                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                                     
                   HOUSE COMMITTEE ON ARMED SERVICES


                     One Hundred Eleventh Congress

                    IKE SKELTON, Missouri, Chairman
JOHN SPRATT, South Carolina          HOWARD P. ``BUCK'' McKEON, 
SOLOMON P. ORTIZ, Texas                  California
GENE TAYLOR, Mississippi             ROSCOE G. BARTLETT, Maryland
NEIL ABERCROMBIE, Hawaii             MAC THORNBERRY, Texas
SILVESTRE REYES, Texas               WALTER B. JONES, North Carolina
VIC SNYDER, Arkansas                 W. TODD AKIN, Missouri
ADAM SMITH, Washington               J. RANDY FORBES, Virginia
LORETTA SANCHEZ, California          JEFF MILLER, Florida
MIKE McINTYRE, North Carolina        JOE WILSON, South Carolina
ROBERT A. BRADY, Pennsylvania        FRANK A. LoBIONDO, New Jersey
ROBERT ANDREWS, New Jersey           ROB BISHOP, Utah
SUSAN A. DAVIS, California           MICHAEL TURNER, Ohio
JAMES R. LANGEVIN, Rhode Island      JOHN KLINE, Minnesota
RICK LARSEN, Washington              MIKE ROGERS, Alabama
JIM COOPER, Tennessee                TRENT FRANKS, Arizona
JIM MARSHALL, Georgia                BILL SHUSTER, Pennsylvania
MADELEINE Z. BORDALLO, Guam          CATHY McMORRIS RODGERS, Washington
BRAD ELLSWORTH, Indiana              K. MICHAEL CONAWAY, Texas
PATRICK J. MURPHY, Pennsylvania      DOUG LAMBORN, Colorado
HANK JOHNSON, Georgia                ROB WITTMAN, Virginia
CAROL SHEA-PORTER, New Hampshire     MARY FALLIN, Oklahoma
JOE COURTNEY, Connecticut            DUNCAN HUNTER, California
DAVID LOEBSACK, Iowa                 JOHN C. FLEMING, Louisiana
JOE SESTAK, Pennsylvania             MIKE COFFMAN, Colorado
GABRIELLE GIFFORDS, Arizona          THOMAS J. ROONEY, Florida
NIKI TSONGAS, Massachusetts          TODD RUSSELL PLATTS, Pennsylvania
GLENN NYE, Virginia
CHELLIE PINGREE, Maine
LARRY KISSELL, North Carolina
MARTIN HEINRICH, New Mexico
FRANK M. KRATOVIL, Jr., Maryland
ERIC J.J. MASSA, New York
BOBBY BRIGHT, Alabama
SCOTT MURPHY, New York
DAN BOREN, Oklahoma
                    Erin C. Conaton, Staff Director
                 Mark Lewis, Professional Staff Member
                Roger Zakheim, Professional Staff Member
                    Caterina Dutto, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2009

                                                                   Page

Hearing:

Thursday, July 30, 2009, The U.S. Security Relationship with 
  Russia and Its Impact on Transatlantic Security................     1

Appendix:

Thursday, July 30, 2009..........................................    41
                              ----------                              

                        THURSDAY, JULY 30, 2009
     THE U.S. SECURITY RELATIONSHIP WITH RUSSIA AND ITS IMPACT ON 
                         TRANSATLANTIC SECURITY
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Ranking Member, Committee on Armed Services........     2
Skelton, Hon. Ike, a Representative from Missouri, Chairman, 
  Committee on Armed Services....................................     1

                               WITNESSES

Gordon, Hon. Philip H., Assistant Secretary for the Bureau of 
  European and Eurasian Affairs, U.S. Department of State........     9
Vershbow, Hon. Alexander, Assistant Secretary of Defense for 
  International Security Affairs, U.S. Department of Defense.....     4
Winnefeld, Vice Adm. James A., Jr., USN, Director for Strategic 
  Plans and Policy, Joint Chiefs of Staff........................     7

                                APPENDIX

Prepared Statements:

    Gordon, Hon. Philip H........................................    63
    Vershbow, Hon. Alexander.....................................    45
    Winnefeld, Vice Adm. James A., Jr............................    56

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Shuster..................................................    75
     THE U.S. SECURITY RELATIONSHIP WITH RUSSIA AND ITS IMPACT ON 
                         TRANSATLANTIC SECURITY

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                           Washington, DC, Thursday, July 30, 2009.
    The committee met, pursuant to call, at 10:07 a.m., in room 
HVC-210, Capitol Building, Hon. Ike Skelton (chairman of the 
committee) presiding.

 OPENING STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM 
        MISSOURI, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. Good morning. This is the first hearing we 
are having in these temporary quarters. And when our quarters 
back in the Rayburn Building get completed, they are going to 
look very much like this. And I hope you enjoy the trappings 
that we have.
    We welcome you to this hearing on ``The U.S. Security 
Relationship with Russia and Its Impact on Transatlantic 
Security.''
    Appearing before us today, the Honorable Alexander 
Vershbow, Assistant Secretary of Defense for International 
Security, U.S. Department of Defense; our friend, Admiral James 
Winnefeld, United States Navy, Director of Strategic Plans and 
Policy of the Joint Chiefs of Staff--good to see you again, 
sir; the Honorable Philip Gordon, Assistant Secretary for the 
Bureau of European and Eurasian Affairs, Department of State.
    Even though we are learning the scope of today's hearing on 
Russia to security issues, it still presents us with a range of 
topics as broad as that country is wide. Once the heart of a 
superpower, and today a power still to be reckoned with, Russia 
plays a major role in multiple, overlapping issues that have 
impact throughout the globe.
    Still, as big as it is, physically and metaphorically, it 
has been a while since Russia has dominated our thinking in 
regard to security issues. We have had an ongoing dialogue over 
matters of nonproliferation with them, of course. And I am 
pleased that President Obama has undertaken the ambitious 
effort to strengthen and expand our nonproliferation 
cooperation with Russia. It is clear that progress is already 
being made in that arena.
    In many matters, our two sets of national interests are 
intertwined. Both nations are concerned about extremist 
terrorism. Both nations are concerned about the proliferation 
of weapons of mass destruction. Both nations are concerned 
about energy security.
    There are many such areas that are ripe for our 
cooperation. The U.S.-Russia relationship remains important, 
and I am glad that President Obama has reinvigorated it.
    In the last few years, Iraq and Afghanistan have been 
center stage, and we have grown accustomed to thinking of our 
security challenge--as well as our North Atlantic Treaty 
Organization (NATO) allies--through that lens. But we need to 
look no further than the Georgia crisis of last summer to 
remind us that Russia also represents a significant challenge 
in our security landscape.
    It is clear that Russia would like to define a sphere of 
influence in what it calls its ``near abroad.'' And it is 
equally clear that it has made some of our NATO allies and 
other European friends quite nervous.
    So, while NATO is performing an independent role in 
Afghanistan, we must not forget that it is first and foremost a 
regional security arrangement, and many of our allies count on 
it--and, therefore, us--as the guarantor of European stability.
    In regards to arms control and nuclear security, President 
Obama has established an ambitious agenda that he has described 
eloquently in his April speech in the Czech Republic. I am glad 
to see the Administration is working hard with its Russian 
counterparts to complete a modest follow-on to the Strategic 
Arms Reduction Treaty (START) that expires in December.
    Even if a new treaty cannot be ratified by the December 
deadline, START should not be allowed to expire, because the 
data exchanges and other verification provisions in that treaty 
contribute significantly to strategic stability and is in our 
national interest.
    Yet these initiatives in other areas of mutual cooperation 
could be stunted by disagreements over issues such as non-
strategic nuclear weapons, and especially missile defenses. The 
Administration's ongoing review of missile defense requirements 
and how that fits in the larger framework of U.S. national 
security interests and striking that appropriate balance in 
U.S.-Russia and U.S.-NATO relations is a necessary though 
difficult task.
    And with luck, the Administration can find ways to work 
with Russia on some of these and more difficult topics. But in 
the end, the United States must balance its desire to reset the 
relationship with Russia with a clear calculation of our own 
national interests and the risks and threats that we and our 
allies do face.
    We must be careful to define these interests in the context 
of our overall national security strategy. At the end of 
today's hearing, it will be clear that Russia remains a 
critical influence on that strategy.
    Now, let us turn to my friend, my colleague from 
California, the ranking member, Mr. McKeon.

 STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A REPRESENTATIVE 
  FROM CALIFORNIA, RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. McKeon. Thank you, Mr. Chairman.
    I want to thank you for agreeing to hold a hearing on this 
subject regarding the relationship with Russia and its relation 
on impact--its impact on transatlantic security.
    Your testimony this morning gives our members an 
opportunity to understand the Administration's Russia reset 
policy and better appreciate the ongoing and evolving security 
challenges in Europe and Eurasia.
    This committee last met in March to discuss Russia and NATO 
when we received testimony from General John Craddock, who was, 
until recently, Commander of European Command and Supreme 
Allied Commander. His testimony was insightful and came with 
much appreciated candor. General Craddock said that, after the 
end of the Cold War and the dissolution of the Soviet Union, 
there were no borders under threat of invasion in Europe and 
Eurasia.
    General Craddock continued, stating he thought that 
assumption has been proven false. General Craddock assessed 
that Russia's intent may be to weaken European solidarity and 
systemically reduce U.S. influence.
    As a result, since the Georgia conflict in August of 2008, 
European Command (EUCOM) has called for a re-evaluation of the 
strategic environment, which includes EUCOM's deliberative 
planning, a strategy for Russia and an evaluation of U.S. force 
presence in Europe.
    That was the view of our top military commander back in 
March. Since that time, the Administration's Russia reset 
policy has taken shape.
    While I want to make clear that I support engagement with 
Russia, I am concerned that a grand bargain with Russia may 
risk the viability of the security architecture that has kept 
the European continent peaceful for nearly 60 years. Russian 
misdeeds and provocations in the recent past, as well as their 
planned European security treaty, suggest that the Kremlin 
seeks to weaken NATO, marginalize U.S. influence in Europe and 
gain a veto over European security affairs.
    This is why I support a NATO-first policy, which would make 
clear to our NATO allies that U.S. bilateral engagement with 
Russia will not foster collective insecurity among our allies.
    I commend the Chairman for including in the National 
Defense Authorization Act (NDAA) many of the provisions from 
the bipartisan NATO First bill sponsored by Mr. Turner and Mr. 
Marshall, which takes legislative steps to strengthen 
transatlantic security. These provisions, to name a few, cover 
the START Treaty, long-range missile defense in Europe, and 
U.S. force presence in Europe.
    Vice President Biden's visit to Ukraine and Georgia last 
week was a step in the right direction. And his assessment that 
Russia used a pretext to invade Georgia demonstrated that the 
reset policy should not sugar-coat Russian behavior. Yet 
striking the balance of renewed engagement with Russia and 
supporting Central and Eastern European allies and partners is 
proving to be a challenge.
    In a July 15th open letter to President Obama, written by 
22 prominent Central and Eastern European figures, expressed 
deep concern among America's Central and Eastern European 
allies over the implications of improved relations between 
Russia and the U.S. on their security and the transatlantic 
relationship.
    Following Vice President Biden's visit, Russia's envoy to 
NATO said that Russia considered the question of rearming 
Georgia more serious than whether Georgia enters NATO. 
Secretary Clinton quickly affirmed that the Obama 
Administration considered Russia a great power, and remains 
committed to reset bilateral relations.
    It is precisely this balancing act that played out in the 
headlines this week that I would like our witnesses to discuss 
today. How do we ensure that our bilateral agreements with 
Russia do not compromise our commitment to transatlantic 
security?
    This leads me to a number of specific concerns. What kind 
of military-to-military relationship do we expect to have with 
Georgia and Ukraine? And will EUCOM continue its deliberative 
planning?
    With respect to European missile defense, I would like to 
understand how the reset policy has affected NATO's support of 
European missile defense, in particular, the impact that it has 
had on Poland and the Czech Republic, as well as the 
Administration's missile defense review.
    With respect to the START Treaty that many of us in the 
House have concerns about: how START may impact the nuclear 
triad, considering the announced reductions in strategic 
delivery vehicles to between 500 and 1,100; the 
Administration's Nuclear Posture Review, which frames the 
military's nuclear requirements; advanced conventional 
capabilities and space capabilities; enhancing the reliability, 
safety and security of our strategic nuclear forces and the 
needed modernization of our aging nuclear weapons complex; and 
finally, the large number of Russian tactical nuclear weapons 
deployed near Europe.
    In addition to hearing your views on these specific 
concerns, I am interested in the Administration's views on the 
provisions in the House-passed NDAA that address these issues.
    Finally, I hope your testimony today will cover the 
recommendations of the Congressional Commission on the 
Strategic Posture of the United States. In particular, I am 
interested whether the Administration will adopt two of the 
commission's unanimous findings and recommendations: number 
one, that the United States must retain nuclear weapons until 
such time as the international environment may permit their 
elimination globally; and two, the United States must also 
continue to concern itself with issues of deterrence, assurance 
and stability in the nuclear relationship with Russia.
    As you can see, there is a lot to cover today, and I look 
forward to your testimony and hope that the discussion we have 
today will give this Congress and the American people a better 
understanding of the U.S.-Russia security relationship.
    Thank you very much. I yield back.
    The Chairman. I thank the gentleman from California.
    We will begin with Mr. Alexander Vershbow.
    The Honorable Vershbow, please.

 STATEMENT OF HON. ALEXANDER VERSHBOW, ASSISTANT SECRETARY OF 
DEFENSE FOR INTERNATIONAL SECURITY AFFAIRS, U.S. DEPARTMENT OF 
                            DEFENSE

    Secretary Vershbow. Thank you, Chairman Skelton, Ranking 
Member McKeon, and other members of the committee.
    I very much welcome this opportunity to appear before you 
today to discuss the U.S. relationship with Russia and its 
implications for transatlantic and U.S. security.
    Russia has been a lifelong interest for me since I began 
studying the Russian language in high school in the 1960s. As a 
Foreign Service officer at what was then the Soviet desk in the 
1980s, as U.S. ambassador to Russia from 2001 to 2005, and now 
as assistant secretary of defense for international security 
affairs, I have learned that getting U.S.-Russian relations 
right is one of our highest priorities and one of our biggest 
challenges.
    So, it is especially meaningful to report that recent 
developments in U.S.-Russian relations--and, most importantly, 
the Moscow summit that took place earlier this month--have 
created new opportunities for cooperation with Russia to 
enhance U.S. and European security.
    We are now trying to build on this positive momentum to 
collaborate with Moscow in areas where our national interests 
coincide such as nonproliferation, arms control and bringing 
security and stability to Afghanistan.
    Although we have pressed the reset button, this does not 
mean we will shy away from dealing with Russia on areas where 
we disagree such as Georgia or NATO enlargement. And we will in 
no way, reduce or compromise our commitment to the security of 
our NATO allies and also our allies in Asia and other parts of 
the world.
    The challenge is to find a way not only to work 
cooperatively with Russia in areas where our interests coincide 
but also to continue to engage in the other more contentious 
areas without artificial linkages. It is on this basis that we 
seek to establish a more solid basis for a sustained engagement 
with Russia.
    Mr. Chairman, I would like to make a few comments on major 
areas of common interest where we did make some progress at the 
summit and where we believe Russia can work with us as a 
contributor to our mutual security. I will also touch on a 
couple of issues where we still have important differences.
    I have a longer statement that I would like to submit for 
the record. So I will keep my opening remarks brief.
    The Chairman. Without objection.
    Secretary Vershbow. Thank you, sir.
    The summit in Moscow was far more productive than we had 
expected. The mood was positive and the discussions were highly 
substantive, opening the way to some concrete agreements and 
understandings on a range of subjects.
    Topping the list was Afghanistan, President Obama's highest 
priority. The Russians I think recognize that they, too, have a 
stake in defeating the Taliban and establishing a stable, 
democratic Afghanistan.
    The most important deliverable was the signature of an 
agreement permitting the transit of troops and lethal material 
through Russian air space, up to 4,500 military flights and 
unlimited commercial flights each year which will diversify 
supply routes and significantly reduce transit times and fuel 
costs. We also are encouraged by Russian interest in expanding 
their involvement in other areas such as training the Afghan 
police.
    Arms control was another area of progress. One of President 
Obama's primary goals was to reach a framework agreement for a 
new START Follow-on Treaty and under the joint understanding 
signed in Moscow, strategic delivery vehicles will be reduced 
to a range of 500 to 1,100 and their associated warheads to 
between 1,500 and 1,675. My colleagues, I think will say more 
about START.
    Another major summit goal was to strengthen our cooperation 
with Russia on preventing the proliferation of nuclear weapons. 
And in this regard, Presidents Obama and Medvedev had lengthy 
discussions on how to deal with the immediate challenges posed 
by Iran and North Korea. They spent a lot of time on Iran in 
particular. And they agreed as well to broaden our bilateral 
cooperation to increase security of nuclear materials and 
facilities worldwide.
    I think, taken together, the initiatives of the summit--on 
nuclear issues, the START follow-on and understandings on 
nuclear security--were an important step toward President 
Obama's goal of a world without nuclear weapons, and will 
strengthen U.S. and Russian leadership as we prepare for next 
year's review conference for the nonproliferation treaty.
    Now, on missile defense, although it remains a very 
contentious issue, we were able to reach agreement on a joint 
statement, which includes a joint ballistic missile threat 
assessment, that will be focused primarily on Iran and North 
Korea. We have had a U.S. team in Moscow this week to begin the 
process. We also pledged to redouble efforts to open the long-
planned Joint Data Exchange Center in Moscow.
    We hope these modest steps will serve as the basis for more 
substantial cooperation, both bilaterally and in the NATO-
Russia Framework, aimed at defending our nations against 
ballistic missile threats.
    The Department of Defense (DOD) is, as you know, 
conducting--is taking a comprehensive look at plans for 
European missile defense as part of the wider ballistic missile 
defense review. The outcome on European missile defense will be 
determined by the threat from Iran, by the technical 
feasibility of different missile defense options and the cost. 
This is not a bargaining chip in our dealings with Moscow on 
Iran, or START, or on any other issue.
    There are a lot of other subjects where I think we made 
some progress in resetting relations, including NATO-Russia 
cooperation, military-to-military contacts and European 
security architecture. My colleagues will say more about those. 
They are covered in my prepared statement.
    As I mentioned at the outset, there are some important 
issues where we continue to disagree, and where the U.S. is not 
going to compromise its principles. These include NATO's open 
door policy, upholding the sovereignty of countries in the 
post-Soviet space, Russia's suspension of its compliance with 
the Conventional Armed Forces in Europe Treaty, and its 
backsliding on democracy and human rights issues.
    As we move forward, we and the Russians will need to 
discuss these issues in an honest but respectful way, and keep 
them from damaging cooperation in other areas as much as 
possible.
    I think that of all these areas, relations with Russia's 
neighbors may be the most difficult to manage. As the President 
said in Moscow, the United States rejects anachronistic, 19th 
century notions of spheres of influence or spheres of 
privileged interest.
    That is why Vice President Biden, during his visits to 
Georgia and Ukraine last week, reaffirmed U.S. support for both 
countries' sovereignty, independence and territorial integrity. 
In our view, good U.S. relations with Russia and cooperation 
with Russia's neighbors--including in the defense and security 
field--should not be seen as mutually exclusive.
    Russia, on the other hand, continues to take a zero-sum 
approach, so we are going to have to continue to address these 
differences in a bilateral dialogue, in discussions in the 
Organization for Security and Cooperation in Europe (OSCE) on 
strengthening European security architecture. And we will, of 
course, continue to give highest priority to NATO, which is 
still the bedrock of transatlantic security. And as we begin to 
review NATO's new strategic concept, ensuring that there is no 
doubt about the firmness of Article 5 will be one of our 
highest priorities.
    So, Mr. Chairman and members, the signals from Moscow since 
the summit have thus far been largely positive. We hope that 
with a more formal institutional framework for the relationship 
in the form of the bilateral presidential commission, we will 
be able to move toward a more stable and substantive 
partnership.
    I will just conclude by saying that, if we can maintain the 
momentum, historians may view the Moscow summit as a turning 
point in U.S.-Russia relations. But there is a lot of work to 
be done before we can say that. We are under no illusion that 
the reset will be easy. Nor do we believe that a strategic 
partnership will simply develop overnight, since our interests 
do not coincide in a lot of areas.
    But we do believe that improved relations between the U.S. 
and Russia, which had started on a downward trend long before 
the August 2008 events in Georgia, can help us meet many of the 
challenges that we face today.
    So, we are cautiously optimistic, as we diplomats say, that 
the agreements that arose from the summit will assist our 
efforts broadly, from reducing strategic weapons stockpiles to 
bringing peace to Afghanistan.
    So, thank you for the opportunity to share my thoughts 
today, and I look forward to your questions.
    [The prepared statement of Secretary Vershbow can be found 
in the Appendix on page 45.]
    The Chairman. Thank you very much, Mr. Secretary.
    Admiral Winnefeld.

 STATEMENT OF VICE ADM. JAMES A. WINNEFELD, JR., USN, DIRECTOR 
     FOR STRATEGIC PLANS AND POLICY, JOINT CHIEFS OF STAFF

    Admiral Winnefeld. Chairman Skelton, Mr. McKeon and members 
of the committee, it is good to be back. Thank you for inviting 
me to address the committee today. In support of my colleagues, 
I will focus my comments on the military aspects of our 
relationship with Russia.
    It goes without saying that the nature of our relationship 
with Russia--on the military side and elsewhere--has changed 
dramatically over the course of the last year, with the 
invasion of Georgia clearly representing a setback. And at that 
point, as you are aware, we suspended all military-to-military 
activity with the Russians.
    And I would point out that that seminal event actually 
underscores the importance of having a strong military-to-
military relationship with Russia, as with other nations in the 
world. Indeed, at several pivotal points during that particular 
conflict, the only constructive contact between our governments 
was the military-to-military channel.
    And when I accompanied Admiral Mullen to Helsinki in 
October of last year to meet with his General Staff 
counterpart, I observed firsthand how maintaining a strong 
military-to-military relationship can reduce tension and 
mitigate misunderstanding during a crisis.
    Moreover, it represented a small but important step in 
reinforcing our working relationship as a foundation for future 
progress. And we are making progress in resetting this vital 
relationship.
    We recognize that the path towards greater partnership and 
in cooperation will not always be smooth. However, by not 
allowing our relationship to fracture when our interests 
diverge, we will enable the benefits of cooperating where our 
strategic interests actually coincide.
    Positive relationships between our militaries are a 
foundation for good relationships between our governments and 
our countries. And we are working with the Russian Ministry of 
Defense and the General Staff to rebuild, and to try to 
improve, on the military-to-military programs we had before 
they were suspended.
    And, in fact, even since the beginning of this year, we 
have allowed the Harvard generals program to occur in February, 
after a difficult decision. We conducted two port visits to 
Vladivostok--one in June for Russia's National Day, and one in 
July in support of our own Independence Day.
    We have seen limited but good cooperation on countering 
piracy off of Somalia, with limited Russian presence in that 
part of the world. And we reached, as you are well aware, an 
agreement on transit through Russia of non-lethal supplies 
bound for our troops in Afghanistan, even before the summit 
occurred.
    And as you are certainly aware, Admiral Mullen recently 
visited Moscow twice, once in late June for discussions with 
counterpart, Chief of the General Staff Makarov, and again in 
July in support of the presidential summit, where, in addition 
to various other agreements that were inked, they signed a new 
framework on military-to-military cooperation.
    This framework is our combined vision for changing the 
nature of our relationship, based on the principles of 
pragmatism, parity, reciprocity, balance and synchronization 
with NATO. It will set conditions that raise cooperation to a 
new level between our respective armed forces, although I would 
echo Ambassador Vershbow in saying that this will not happen 
overnight.
    Our interactions with Russian military officers will 
importantly improve their understanding of our society and lay 
the foundation for future relationships such as that enjoyed by 
Admiral Mullen and General Makarov.
    These two men are also committed to leading the military-
to-military working group of the Presidential Bilateral 
Commission to ensure that cooperative endeavors in the military 
realm remain on track and continue in the strategic direction 
that the President has mandated.
    We are currently in the midst of preparing a robust and 
meaningful proposal for how the military-to-military commission 
will function, how it will be constructed and what it will 
accomplish.
    Meanwhile, the 2009--and remember, we only have 6 months 
left--the work plan approved by Admiral Mullen and General 
Makarov encompasses nearly 20 meaningful and mutually 
beneficial exchanges and operational events. It is not as much 
as we would like for it to be in the future, but it is a good 
start for the remainder of this year.
    They include, among other interactions that I will be happy 
to list for you if you would like, joint staff talks which I 
will co-chair with my counterpart in Moscow, we hope in 
October. In addition, the U.S. European Command and the Russian 
Ministry of Defense are postured to create an even more 
ambitious work plan for the coming year.
    I would like to make an important caveat, though. Our 
improved military relations with Russia will not come at the 
expense of our already positive and cooperative military 
relations with our NATO partners and our other important 
partners.
    We do not believe it beneficial to engage in zero-sum 
gamesmanship in Eurasia or anywhere else, and we hope to convey 
that sentiment to our Russian colleagues to cooperative 
progress in areas of common strategic interest. We intend to 
continue our work with all parties to cultivate stability and 
enhance transparency throughout the region and indeed across 
the globe.
    In conclusion, we nearly always regret severing our 
military relationships with another country, as we did with 
Pakistan in the 1980s. As such, we are getting back on a 
constructive footing with the Russian military without 
compromising our principles.
    As I rediscovered in January of last year while visiting 
the Baltic Fleet deputy commander aboard his flagship, Moskva, 
in Lisbon, relationships at the tactical level are almost 
always warm and productive. It is our mandate to ensure that 
the warmth and cooperation that we enjoy at the tactical level 
percolates up to the strategic level, and we have every 
intention of succeeding.
    Thank you again, sir, for the opportunity to be with the 
committee today. And I look forward to your questions.
    [The prepared statement of Admiral Winnefeld can be found 
in the Appendix on page 56.]
    The Chairman. Admiral, thank you very much.
    Mr. Gordon. Secretary Gordon, please.

STATEMENT OF HON. PHILIP H. GORDON, ASSISTANT SECRETARY FOR THE 
  BUREAU OF EUROPEAN AND EURASIAN AFFAIRS, U.S. DEPARTMENT OF 
                             STATE

    Secretary Gordon. Thank you, Mr. Chairman, Congressman 
McKeon and all the members of the committee. I would also like 
to thank you for holding the hearing and giving us the 
opportunity to speak with you today about the Administration's 
accomplishments at the Moscow summit and about our Russia 
policy more generally.
    I have also submitted my full testimony for the record, and 
here, if you will permit, would like to just make a few brief 
opening remarks.
    The Chairman. Any prepared remarks by the witnesses will be 
entered, without objection.
    Secretary Gordon. Thank you very much.
    My colleagues have already talked about a number of the 
military and security issues. So I would like to begin by 
putting the results of the summit in a somewhat wider context.
    The Obama Administration entered office seeking to put an 
end to a period of difficult and deteriorating relations with 
Russia. Last December, then-President-elect Obama talked about 
a reset in our relations with Russia.
    What he argued was that the United States and Russia have 
common interests in a number of areas. These include nuclear 
nonproliferation, Afghanistan, terrorism and many others. And 
he argued that it should be possible to cooperate practically 
in these areas, even as we disagreed on other issues.
    And I think it is fair to say that the results of the 
Moscow summit demonstrate that the President's instincts on 
this were correct. Just six months since the President took 
office, and just three months since he and President Medvedev 
met in London and agreed to hold the summit in Moscow, the 
United States and Russia have gone far towards achieving a 
fresh start and reaching concrete accomplishments.
    At the summit, our leaders made progress in improving the 
tone of our relations and helping to build good will between 
our two countries. But perhaps even more importantly at the 
summit, we were able to translate this rhetoric about potential 
cooperation into concrete actions that are fundamental to the 
security and prosperity of both of our countries.
    This significant progress in our relations with Russia, let 
me stress, did not in any way come at the expense of our 
principles or our partnerships with good friends and allies. 
There are still many areas where the United States and Russia 
disagree. My colleagues have already mentioned Georgia and NATO 
enlargement among them. And we will continue to disagree about 
these and, no doubt, other issues.
    The President made this clear in Moscow. And he also did 
not shy away from raising--both privately and publicly--issues 
such as democracy, human rights and press freedoms. At the same 
time, in Moscow, we also demonstrated in real terms our shared 
desire to build a relationship based on common interests and 
mutual respect.
    As my colleagues have pointed out already, the United 
States and Russia took important steps to increase nuclear 
security and prevent the spread of nuclear weapons, beginning 
with the reduction of our own nuclear arsenals. The two 
Presidents signed a joint understanding for a follow-on 
agreement to START that commits both parties to a legally 
binding treaty that will reduce our nuclear warheads and 
delivery systems by at least one-third over current treaty 
limitations.
    President Obama and his Russian counterparts spoke at great 
length on Iran. And the President underscored the importance we 
place on international efforts to prevent Iran from acquiring 
nuclear weapons. President Obama also emphasized the importance 
of Russia's role in pressing Iran to comply with its 
nonproliferation obligations.
    In addition, the Presidents agreed to participate in a 
joint threat assessment of the ballistic missile challenges of 
the 21st century, including those posed by Iran and North 
Korea. An interagency team of experts is already heading out to 
Moscow this week to begin discussions of this joint threat 
assessment.
    In another related area, we made concrete commitments to 
deepen security cooperation, including by working together to 
defeat the violent extremists and to counter transnational 
threats, including those of piracy and narcotics trafficking.
    As my colleagues have pointed out, Chairman of the Joint 
Chiefs of Staff Mullen and his Russian counterpart have agreed 
on a work plan of resuming military-to-military contacts that 
were cut off after the war in Georgia.
    I think another very tangible result of the summit was 
Russia's agreement to allow the United States to transport 
military personnel and equipment across Russia in support of 
the NATO-led International Security and Assistance Force and 
our other coalition forces in Afghanistan. This agreement will 
add flexibility and further diversify our crucial supply 
routes, resulting in potential savings of up to $133 million in 
fuel, maintenance and transportation costs.
    The significance of this contribution to our efforts to 
bring peace and stability in Afghanistan--which is also of 
strategic benefit to Russia--should not be understated. It is 
indeed an excellent example of how the two countries can 
cooperate in pursuit of common interests without any quid pro 
quos.
    We also agreed to strengthen cooperation in nonstrategic 
areas, including public health, and by restoring the work of 
the Joint Commission on Prisoners of War and Missing in Action.
    Finally, President Obama and President Medvedev recognized 
the need for a more structured foundation for advancing 
cooperation in key areas across our respective interagencies. 
The Bilateral Presidential Commission, to be chaired by the two 
Presidents and coordinated by Secretary Clinton and Foreign 
Minister Lavrov, will provide a mechanism for sustaining and 
expanding on the progress achieved in Moscow while also 
providing a forum in which we can work together to effectively 
narrow our differences.
    Notwithstanding all these positive developments, I want to 
stress we have no illusions that our reset of relations will be 
easy, or that we will not have continuing differences with 
Russia. We are, however, confident that the United States and 
Russia can still work together where our interests coincide, 
while at the same time seeking to narrow those differences in a 
mutually respectful way.
    In this regard, the President was unequivocal in his 
message that the reset in our bilateral relationship will not 
come at the expense of our friends and our allies. More than in 
words but in actions, we have demonstrated our commitment to 
the territorial integrity and independence of Russia's 
neighbors, including Ukraine and Georgia. President Obama made 
very clear in Moscow that we will continue to support their 
sovereignty and their right to choose their own security 
alliances, a message that was reinforced last week by the Vice 
President in his trip to both of those countries.
    To conclude, Mr. Chairman, at the Moscow summit the United 
States and Russia took significant steps forward in translating 
the reset in our relations into concrete achievements that 
benefit both our nations and our global partners. Without 
abandoning our principles or our friends, we demonstrated that 
the United States and Russia can work effectively together on a 
broad range of issues where our interests coincide.
    Thank you again for giving us the opportunity to address 
these issues, and I look forward to your questions.
    [The prepared statement of Secretary Gordon can be found in 
the Appendix on page 63.]
    The Chairman. I think, Secretary Gordon, my questions 
should be addressed to you.
    Can you give a quick summary of the relationship between 
Russia and Iran? And I have follow-up questions on them.
    Please?
    Secretary Gordon. I think, in terms of the way we look at 
the need for cooperation with Russia and Iran, there are some 
positive elements and some less positive elements.
    I believe that Russia shares our interest in preventing 
Iran from acquiring a nuclear weapon. And they have taken some 
constructive steps along with us to achieve that goal. They 
have agreed to several U.N. Security Council resolutions making 
it illegal for Iran to enrich uranium, and imposing sanctions 
on Iran for doing so.
    And they have joined us in the so-called P5-plus-1 or E3-
plus-3 process, which is our main diplomatic mechanism for 
showing Iran a path to cooperation with the international 
community, if it agrees to provide reassurance it is not 
producing nuclear weapons, but also making clear to Iran that 
there would be consequences if it fails to do so. And I believe 
that Russia has constructively worked with us within that 
context.
    At the same time, let me be honest. We do not see Iran 
exactly the same way. And as I noted, the President raised this 
very clearly with his counterparts--and they probably discussed 
this more than any other issue in Moscow--because we believe 
that Russia has an important role to play. If Iran fails to 
respond to the offer that is currently on the table, we believe 
that pressure needs to be enhanced on Iran, and that requires 
Russian cooperation.
    Russians have been less convinced than we are that such 
pressure will need to be applied. And therefore, we continue to 
work with the Russians and make it very clear to them that we 
hope and expect them to work with us on the way forward, if 
Iran fails to respond.
    The Chairman. That leads me to the question: Will Russia 
support us should events come to pass in the United Nations 
Security Council to have strong economic sanctions against 
Iran, if further evidence emerges that Iran is developing 
nuclear weapons?
    Secretary Gordon. Well, we will certainly seek such 
cooperation.
    For a number of years, a number of countries including----
    The Chairman. That is not answering my question.
    Secretary Gordon. Well, I will get to that.
    What I was going to say is, we have been working for a 
number of years--for a number of years, countries including 
Russia have been asking us to be prepared to engage with Iran 
and make sure that Iran has an alternative to pressure and 
sanctions, to make sure that Iran has an alternative path if 
they do cooperate with the international community.
    We have now done that. The President has made clear we are 
prepared to support a civil nuclear energy program for Iran. 
And we are prepared to talk directly with Iran. And we are 
prepared to support the other members of the Security Council 
in offering Iran such a path forward.
    That is on the table. And we have responded to the requests 
by our allies in Europe and in Russia to offer Iran that 
opportunity.
    And we have said, and the President has made clear, that if 
Iran does not respond soon--certainly by the end of the year--
we will then come back to our partners on the Security Council 
and say we have offered that path, and now it is time to 
increase the pressure.
    So, there is only one way to find out. We will take it back 
to the Security Council and seek Russian cooperation.
    Can I guarantee that they will give a positive answer? No. 
But that is what we are working to achieve.
    The Chairman. What arms transfer and what nuclear 
cooperation has passed from Russia to Iran in recent months and 
years?
    Secretary Gordon. In terms of nuclear cooperation, Russia 
has for years provided assistance to Iran in finishing the 
construction of the Bushehr nuclear reactor, which is not 
necessarily a contribution to their nuclear weapons program. 
And so long as the fuel cycle is controlled by Russia, that can 
be contained without undue proliferation concerns.
    Beyond that, I do not think that Russia is in any way 
involved in contributing to nuclear cooperation in ways that 
would lead to Iran acquiring a nuclear weapon.
    The great concern in Iran, indeed, is its own autonomous 
capabilities. Our great concern in Iran is that it develops 
itself the technology to master the full fuel cycle, which 
would give it the opportunity to so-called break out of its 
nuclear nonproliferation obligations and produce its own 
nuclear weapons.
    So, it is not so much a matter of Russia's cooperation with 
Iran in the nuclear area; it is Iran's development of 
autonomous technology that would give it a fuel cycle and a 
breakout capacity. And that is what we are working with Russia 
and others to try to prevent.
    The Chairman. Thank you.
    Mr. McKeon.
    Mr. McKeon. Thank you, Mr. Chairman.
    Thank you for your testimony and for your service.
    As I mentioned in my opening statement, in March General 
Craddock assessed that Russia's intent may be to weaken 
European solidarity and systematically reduce the U.S. 
influence.
    I would like to ask each of you if you share General 
Craddock's assessment.
    And then, does the Administration have any concerns 
regarding President Medvedev's proposed European security 
treaty? And does the Administration support EUCOM's efforts to 
conduct deliberative planning?
    Secretary Gordon. I am happy to start. I am sure my 
colleagues will want to weigh in.
    The short answer to the first question is, yes, there have 
certainly been signs that Russia has an interest, or pursues an 
interest, in dividing the Western alliance. I think we always 
have to be careful in talking about Russia in deciding which 
Russians we are talking about. I think I would not want to 
issue such a blanket statement that all Russians pursue this. I 
think there are others who do not.
    But, yes, for sure there have been signs of Russian efforts 
to divide the West and to prevent what they would see as undue 
American influence and hegemony. I think that is accurate.
    On the President Medvedev idea of a European security 
treaty, we have said that we are always open to discussions of 
European security and happy to have a dialogue with Russia and 
our other partners about how it can be strengthened.
    But we have also said that we believe there are already 
some pretty sound European security organizations, including, 
first and foremost, NATO, also including the OSCE. And those 
are the channels in which this discussion should take place.
    The NATO-Russia Council is an opportunity for us to speak 
with the Russians about European security. And the OSCE is a 
chance for all 56 of its participating states to have exactly 
the sort of discussion that the Russians have proposed. So, we 
have insisted that that discussion take place at the OSCE, as 
it did at the recent ministerial.
    And frankly, there was not a lot of support for a Russian 
idea of some sort of new treaty, because, as I say, not only do 
we think we already have some pretty good institutions, we 
already have some pretty good principles for European security 
including a non-use of force and respect for territorial 
integrity, and the principle that countries can join the 
alliances of their choosing.
    So, we are open to dialogue, we are happy to hear Russian 
ideas, and we are happy to talk to them. But we think it should 
remain in established channels based on the principles that we 
have already agreed on.
    Mr. McKeon. And finally, do you support EUCOM's efforts to 
conduct deliberative planning?
    Secretary Gordon. Yes, that is a very important 
manifestation of our commitment to NATO's Article 5. I am sure 
my colleagues will want to elaborate on this. But the short 
answer is, ``yes.''
    Mr. McKeon. Thank you.
    Secretary Vershbow. Mr. McKeon, I certainly share my 
colleague's assessment that the Russians continue to practice 
the kind of policies that General Craddock described in terms 
of seeking to create divisions between the U.S. and its allies, 
and to create anxieties on the parts of our allies, 
particularly the new members of NATO in Central Europe, 
regarding their security.
    But I think the Russians at the same time are also 
realistic. And if we are doing our jobs in terms of ensuring 
that our security guarantees through NATO remain effective, and 
that we make clear that key initiatives such as missile defense 
are not going to be bargaining chips, I think that we can 
manage this and steer the Russians towards a more cooperative 
agenda. It is not going to be an easy challenge, but that is 
certainly our goal.
    I cannot add much to Phil Gordon's comments on the Medvedev 
proposals. I think that we certainly see room for improving 
some of the mechanism's effectiveness in preventing conflicts.
    What happened a year ago in Georgia, clearly, is something 
that we do not want to see repeated. And to the extent that we 
can improve the effectiveness of mechanisms like the NATO-
Russia Council, the OSCE, in diffusing these kinds of 
situations before they escalate, I think everybody's security 
would be enhanced.
    But we do not think that we need to scrap the institutions 
we have. And I think the Russians, after initial signals that 
their agenda was to eliminate NATO or to downgrade NATO's role, 
have taken a more realistic approach, and have said as much, 
including in the Moscow summit, when they insisted that they 
were not trying to abolish NATO.
    We do definitely believe that not only EUCOM but NATO as a 
whole should be doing the prudent planning for the defense of 
all of its members. And I think this is something that 
President Obama attaches great significance to, as does 
Secretary Gates. And it will be something that we will be 
pursuing as we engage with our allies in the formulation of 
NATO's new strategic concept, which we are hoping to complete 
by the end of next year when NATO has another summit in Lisbon.
    Admiral Winnefeld. Sir, for the first two questions, I 
think my other colleagues are better positioned to answer those 
than I am. But I would tend to concur that the Russian behavior 
over the long term has been transactional, balance of power, 
and that they will take whatever they can get.
    I think the important thing is that, we have seen from our 
allies and our friends in Europe that they have exercised 
considerable resolve, and they understand the nature of a 
Russian proposal to do what they have suggested. And I think 
that Russia has recognized the resolve that these nations have 
shown.
    And, in fact, I think there was a recent comment from one 
of them--one of the Russians--that, ``Well, we don't really 
want to change the hardware; we just want to change the 
software,'' you know, sort of backing down off of that proposal 
just a little bit.
    So, I think I am not concerned about the commitment of our 
friends in Europe to maintaining the health of the current 
mechanisms that are there, while they are interested in 
listening to what the Russians have to say, as they should.
    On the last point, it goes without saying that any 
discussion of actual military planning is a sensitive topic 
that I would be cautious in an open hearing in discussing.
    But I would also add that we tend to be very supportive of 
our combatant commanders when they come in and suggest that 
they need to do some planning, and that Admiral Stavridis has 
only been in the seat, as it were, for several weeks. And we 
know that he is building his thought process and his opinions 
on what he would like to do there. And we will listen very 
closely when he comes in with a formal proposal, should he have 
one.
    Mr. McKeon. Thank you very much.
    Mr. Chairman, we have a lot of members, so I will do these 
other questions later or in writing. Thank you.
    The Chairman. Thank you, Mr. McKeon.
    Mr. Taylor.
    Mr. Taylor. Mr. Chairman, I am going to yield to Mr. 
Loebsack.
    Mr. Loebsack. Well, thank you, Mr. Taylor. I really 
appreciate the opportunity to speak to our witnesses.
    And thanks to all of you for your service. In particular, I 
guess I----
    The Chairman. Will the gentleman suspend just for a moment?
    The clock showed two lights for a vote. That is a Senate 
vote and not a House vote. The House is not wired for this room 
evidently, so we can ignore that.
    Mr. Loebsack, you can proceed.
    Mr. Loebsack. Thank you.
    Mr. Larsen. Mr. Chairman, can we ignore the Senate as well?
    The Chairman. Yes.
    [Laughter.]
    Mr. Loebsack. Suddenly, we are all members of the Senate.
    The Chairman. Who said that?
    [Laughter.]
    The Chairman. Mr. Larsen, we will take that under 
consideration.
    Mr. Loebsack. We might get bipartisan support for that 
proposal.
    If we could just spend a little time on Afghanistan, 
perhaps broaden it out to Pakistan as well, to the region.
    I think it was you, Mr. Gordon, who mentioned supply 
routes. Can you elaborate on that a little bit to begin with?
    Secretary Gordon. Sure. And as I noted, that was what I 
think is a very good example of the type of cooperation we can 
pursue in areas where we have common interests, even while we 
strongly disagree in other areas.
    Mr. Loebsack. First, can you tell us what those common 
interests are? How do our interests coincide in this?
    Secretary Gordon. I think both the United States and Russia 
have a very strong interest in a stable and peaceful 
Afghanistan. We have both, of course, fought wars and made 
sacrifices and lost lives and spent a lot of money in 
Afghanistan when it was unstable.
    And Russia, like the United States, has an interest in 
stemming Islamic extremism which, of course, emanated from 
Afghanistan and struck this country so tragically.
    So I do not think we have different interests in 
Afghanistan. Broadly at least, we both have interests in 
stabilizing that country.
    And that is precisely what we said to the Russians. ``We 
may disagree in other areas, but we are working very hard with 
the rest of the international community to try to stabilize 
Afghanistan. You have an interest in that as well. It would 
help us if you allowed us to transit your country and diversify 
our supply routes.''
    And the agreement that we reached allows the United States 
to undertake up to 4,500 flights, including military flights, 
across Afghanistan to get what we need to our troops there. 
And, as you know, that is such a difficult challenge, given 
Afghanistan's location.
    And we were able to do that. The estimates are that doing 
so, depending on how many flights we end up flying, could save 
this country $133 million a year by having the shorter routes 
to fly. And that will directly and concretely benefit us.
    And as I said in my opening statement, there was not a quid 
pro quo. And that is just the sort of positive working together 
that we are seeking to achieve--not, they will allow us to fly 
across their territory, Afghanistan, if we do X or Y on Georgia 
or in NATO. No. We have a common interest and let us do it.
    So, it is a concrete agreement, and I think it directly 
benefits the United States.
    Mr. Loebsack. What about other countries in the region, 
Central Asian states, for example? What is Russia's 
relationship with them and their allowing us over-flight rights 
as well?
    Secretary Gordon. There has been some sort of competition 
in terms of influence in those countries, at least through 
Russian eyes. They have been cautious about any American 
presence or involvement in what they see as their near abroad. 
And that has been a problem, because, again, we keep trying to 
stress that we should not see our relationship with Russia in 
zero-sum terms.
    Just to take a concrete example, if the United States is 
able to fly supply missions to Afghanistan from Kyrgyzstan, we 
would argue that Russia should have an interest in that. It 
helps our common goal of stabilizing Afghanistan.
    Russia has seen it somewhat differently, and is worried 
about any American presence in what they consider to be their 
backyard.
    But we are now to the point where the United States does 
have an agreement to use Kyrgyzstan territory to help supply in 
Afghanistan. We think that should not threaten Russia. And I 
think maybe the Russians have come around to that view.
    And that, again, is the example of the sort of thing we 
should be able to do without the other country seeing it in any 
way as a geopolitical threat. That is precisely the sort of 
thinking we are trying to get beyond, the notion that a gain 
for the United States is a setback for Russia, or vice versa.
    Being able to operate out of Kyrgyzstan is a gain for the 
United States. It should not be seen as a threat to Russia.
    Mr. Loebsack. And what about counterterrorism efforts, 
cooperation with respect to Afghanistan and Pakistan, the 
Russian counterterrorism efforts and ours?
    Secretary Gordon. They are nowhere near playing the sort of 
role that we are and some of our NATO allies. But at the same 
time, they are not interfering in the role that we are trying 
to play.
    Mr. Loebsack. Okay.
    Any others want to make any comments on that?
    Admiral Winnefeld. I would simply add that we have a common 
interest with Russia in the drug piece coming out of 
Afghanistan. Both Iran, candidly, and Russia have tremendous 
markets for those drugs, and they flow freely across their 
borders. And it worries Russia tremendously. And they would 
like--the cooperation there is good.
    Secretary Vershbow. I would just add, coming back to the 
supply routes issue, as you know, Congressman, there have been 
problems with some of the routes through Pakistan in recent 
months. So our goal has been to establish a network of multiple 
routes through Central Asia, through the Caucasus, through 
airfields in the Persian Gulf region, where we have close 
friends who provided us access, so that we are not dependent on 
any one route.
    So, the Russians have expressed understanding and said that 
transit is something that they can support.
    But as Mr. Gordon said, they are very touchy about the 
presence of U.S. forces on the territory of former Soviet 
republics. They keep saying that permanent bases are 
unacceptable, and we keep assuring them that we do not have any 
long-term designs to have permanent bases in the region.
    The Afghan campaign has gone on longer, perhaps, than we 
anticipated. But our aim is to support the war effort only as 
long as that is necessary.
    Mr. Loebsack. Thanks to all of you.
    Thank you, Mr. Chair.
    And thank you, Mr. Taylor.
    The Chairman. Thank you.
    Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    And thank you, gentlemen, for being here.
    Mr. Gordon, you indicated that you were excited to come and 
speak to us about some of the achievements that occurred in 
Moscow. And I am certain that you know that many have also some 
concerns about what is coming out of the discussions in Moscow, 
and I am looking forward to getting some of your additional 
thoughts.
    When we take a look at the Joint Understanding on a 
Strategic Arms Reduction Treaty that was signed, it included a 
provision that each nation would reduce their strategic 
delivery vehicles to a range of 500 to 1,100, from 1,600 in the 
1991 START 1 Treaty, and the associated warheads to 1,500, to 
1,675 from 1,700, to 2,220 in the 2002 Moscow treaty.
    Obviously, the concern arises on what would be a drastic 
reduction in the level of delivery vehicles, if we were to go 
to a level of 500. The bipartisan Congressional Commission on 
the Strategic Posture of the United States, led by Drs. Perry 
and Schlesinger, believe that the triad of strategic nuclear 
delivery systems should be maintained, with our number 
somewhere around currently 1,200 of deployed ICBMs, SLBMs and 
bombers. And reducing it to a level of 500 would certainly be a 
very drastic reduction.
    Secondly, the joint understanding also included a statement 
saying that a provision on the inter-relationship of strategic 
offensive and strategic defensive arms. Russian President 
Medvedev had suggested that progress on START could hinge on 
the U.S. giving up its European missile defense plans. It would 
appear that the Administration is considering such a concession 
by addressing defense arms in START.
    And then thirdly, the issue of--according to March 2009 
data from the National Nuclear Security Administration, Russia 
is estimated to possess 3,800 operational tactical nuclear 
weapons, while the U.S. possesses less than 500. The START 
joint understanding does not address Russia's tactical nuclear 
weapons.
    So, the questions that follow arise out of the concerns of, 
you know, with such a drastic reduction that could be signaled 
in the joint understanding on delivery vehicles, what is the 
effect on our nuclear triad? And is that then at risk?
    And secondly, on the issue of our defensive arms, is the 
Administration including missile defense in the START 
negotiations?
    And then thirdly, since the joint understanding does not 
include Russia's tactical nuclear weapons, does the 
Administration plan to address Russia's overwhelming number of 
tactical nuclear weapons?
    Secretary Gordon. Thank you for raising all those important 
issues. Let me make a couple of comments, including, in 
particular, on the offense-defense and missile defense issue. 
And I hope my colleagues in the Pentagon will elaborate further 
on the warheads issues.
    Just broadly what I would say on the tactical nuclear 
weapons, no, the START follow-on agreement is the follow-on 
agreement to a treaty reducing offensive weapons. And that is 
what it is focused on, because we believe that both countries 
have an interest in reducing the numbers of their offensive 
nuclear weapons. So, it does not focus on tactical weapons.
    Again, I would say broadly, while deferring to my 
colleagues on some of the specifics of the triads or the 
numbers, but that the basic belief is that we can certainly 
maintain our deterrent adequately, even at the lower numbers in 
these ranges of 500 delivery vehicles and 1,500 warheads.
    On the issue of missile defense relationship to START, I 
want to be very clear. There is not a relationship between our 
thinking about missile defense in Europe and the START Treaty. 
There was not at the summit, and there will not be 
subsequently.
    On missile defense in Europe, the President has been quite 
clear all along that he believes there is a growing threat from 
ballistic missiles and nuclear weapons, particularly from Iran, 
and that if we can deploy missile defenses in Europe or 
elsewhere that will protect us and our allies from that threat, 
we should do so.
    When he came into office, he asked for a review of plans to 
do that, to make sure that we were going about it in the best 
way possible. And that review is currently under way. And what 
I want to stress is that that review is being driven by our 
perception of the threat, particularly from Iran, and by our 
assessment of the technology that would be used in achieving 
this goal.
    And the goal, again, is how do we best protect Americans 
and our European allies from the growing threat from ballistic 
missiles and nuclear weapons. It is not what do other countries 
think, including Russia, or what is the impact of this on 
START.
    And I also want to point out, because I think it is quite 
relevant, as you noted, sir, the Russians insisted all along 
that the price for these agreements in Moscow would be us 
abandoning the so-called ``third site'' in Europe. And in 
particular, they did not want to have even a statement about 
missile defense, unless we agreed beforehand to do that.
    We did not do so. We refused to do so. And it was not until 
the morning of the summit that they understood that we were 
serious about that, and went ahead with the joint statement on 
missile defense and the agreement to a joint threat assessment 
from Iran. And as I say, our people are already heading over 
there now, to try to share with them our analysis of the Iran 
situation and convince them of its seriousness.
    So, no, there is not a link between missile defense and 
START, or anything else. Missile defense decisions would be 
driven by what the threat is and how we think we can best 
protect Americans and Europeans.
    The Chairman. Thank the gentleman.
    Mr. Kissell.
    Mr. Kissell. Thank you, Mr. Chairman.
    Just a few quick questions, Mr. Secretary and Mr. Vershbow.
    Who is in charge in Russia? And what is the relationship 
between the President and the Prime Minister?
    Secretary Gordon. If I could defer to our former ambassador 
to Moscow. I will make a comment, and then I am sure our former 
ambassador in Moscow will have a view.
    What I will not do is speculate on who is up and who is 
down. Russia has a president, President Medvedev. That is our 
President's counterpart, and that is who he mainly met with at 
the summit.
    He spent more than four hours with President Medvedev and 
talked about the full range of issues. And he signed the 
agreements that he signed with President Medvedev.
    He also met with Prime Minister Putin, because Prime 
Minister Putin is the prime minister and a significant figure 
in Russia, and has significant influence.
    And we will not get engaged in really trying to figure out 
who does what. They have a constitution. They have a system. We 
deal with the President. We also acknowledge the importance of 
the Prime Minister. And we have reached agreements with Russia, 
and those are the ones that we intend to continue to pursue.
    Are there differences in emphasis? Yes, I think it is 
accurate to say that there are. Read their public statements, 
and I think you see some differences.
    But we can only deal with the government that is on the 
other side, and that is what we do.
    Secretary Vershbow. Well, Congressman, I cannot add much to 
that. It is clear that we are dealing with what the Russians 
themselves are calling a ``tin democracy.'' And I think 
President Medvedev has been a close ally of now-Prime Minister 
Putin for many years. And I think that they do represent a 
team.
    And as Mr. Gordon said, under the constitution, President 
Medvedev is the head of state and has overall responsibility 
for foreign policy. And therefore, he is President Obama's 
principal counterpart. But President Putin clearly wields 
considerable influence in that system, as prime minister has 
responsibility for the economy. And so I think that, as Mr. 
Gordon said, we deal with the government structure as it is.
    And I think that the conversations in Moscow that our 
President had with both of them suggested that there is not 
huge daylight between them. And I think that the progress that 
we made, we must assume reflects a consensus between the two 
leaders, even if, as Mr. Gordon said, they do have different 
accents in talking about certain issues, reflecting their 
different backgrounds.
    Mr. Kissell. Why do you think you made more progress in the 
recent talks? Why do you think the Russians were more ready to 
concede, cooperate, whatever, than we had expected?
    Secretary Gordon. One can only speculate. We cannot know 
why Russians do what they do. It does seem, however, that the 
first six months of the Administration were a testing period. 
They wanted to see if maybe it was the case that we would be 
prepared to make all sorts of concessions in the name of a 
reset, in the name of a successful summit, in the name of 
getting over the deteriorating relations that I talked about.
    That would not be a surprising policy for Russia to pursue 
and test us, insist that we give up missile defense in order to 
reach agreements, insist that we make concessions on START, 
because we might want a successful summit.
    And I think, to be very frank, we showed them that that was 
not going to be the case. We were quite clear all along. We do 
want some agreements. We do want a better relationship. We do 
not think this is a zero-sum game in which we always have 
different interests. But we are not going to trade off 
important principles or allies in order to have a successful 
summit.
    Just for example, the issue of the U.N. follow-on mission 
in Georgia came up within two weeks of the summit. And I think 
some were wondering, if we were so keen on having a good 
relationship with Russia or a successful summit, that we would 
agree to whatever at the U.N. on Georgia in order to have a 
successful summit. But we did not, because we had red lines. We 
had certain principles that we were not going to walk away from 
where Georgia was concerned.
    We stuck to our guns, and the Russians ended up vetoing the 
U.N. follow-on mission in Georgia. And we were prepared to do 
that, because there are certain things we are just not willing 
to concede on.
    And I think that, to really answer your question, once they 
realized that was the case, then they went ahead and reached 
more agreements than, frankly, I at least would have predicted 
even a week before the summit.
    Mr. Kissell. One real quick question as my time--has just 
gone.
    Yes, thank you.
    [Laughter.]
    The Chairman. Sorry.
    Mr. Coffman, please.
    Mr. Coffman. Thank you, Mr. Chairman.
    And thank you so much for your service to our country.
    Can you give me an estimate of the current governance of 
Russia? It seems that either they have legitimate concerns in 
terms of their security, or it is a state which--a nation-
state--which is devolving more into an autocracy, to where they 
are trying to establish their legitimacy by focusing or, if not 
creating, threats, to establish legitimacy to the Russian 
people.
    But, I mean, their view of NATO, the expansion of NATO, 
their view of U.S. influence in satellite states that were 
former Soviet republics, as was mentioned earlier, missile 
defense, political and military interventions in Georgia and 
Ukraine--you know, are these based on legitimate historic fears 
of the Russian people? Or is this an autocratic government 
trying to flex its power and gain legitimacy that way?
    Secretary Gordon. Legitimate or not, I would certainly say 
these Russian fears exist and are unfounded. I believe it is 
accurate to say that Russia has historical concerns and 
insecurities that have led it to conclude that its most 
promising path for its own security is to dominate its 
neighbors.
    That is a historical Russian perception, and it continues 
to exist today to, what I would say, is an unfortunate degree, 
because I do not think it is accurate.
    I genuinely believe that Russia would have an interest in 
stable, prosperous democracies on its borders, even if they 
should be members of NATO, and that this perception that Russia 
has that somehow European security should be seen in zero-sum 
terms. And if its neighbors like Ukraine want to be friendly to 
the United States, or want to join the European Union or NATO, 
that is a threat to Russia. I believe that that is inaccurate.
    But really, to get at your question, the Russian view, at 
least for many Russians--again, I want to be careful about 
over-generalizing, because I think different Russians have 
different views. And hopefully, with time, the next generation 
will have a different view, and may come to the view that 
stable democracies in Russia's neighbors is in Russia's 
interest.
    But right now, yes. The predominant view in Russia is that 
they are better off dominating their neighbors, even if that 
means instability, than accepting the choices of those 
neighbors--unfortunately.
    Secretary Vershbow. If I could add, I agree with all of 
what my colleague said.
    I think you have both phenomena at work when you talk about 
what is driving Russia, what is the governance in Russia when 
it comes to their national security policy. And they clearly do 
have some legitimate security concerns which overlap with ours, 
whether it is violent extremism, which has affected them in 
Chechnya, and even in Moscow with terrorist bombings a few 
years ago.
    I think they do share an interest in controlling the 
proliferation of weapons of mass destruction, and working with 
us to try to thwart Iran's nuclear ambitions.
    But it is when you get closer to their borders when the 
more negative impulses, I think, tend to dominate. And that is 
why those are going to be the toughest issues for us to manage 
as we go forward.
    But I think that, objectively speaking, as Mr. Gordon said, 
Russia is not threatened by NATO or by new countries, new 
democracies coming into NATO. The real security threats facing 
Russia are largely to their south.
    And that is where I think we are going to try to expand our 
cooperation while continuing the dialogue, trying to convince 
them that NATO, whose mission now is largely to deal with 
distant security challenges like Afghanistan, bringing durable 
stability to the Balkans, is actually contributing to Russia's 
security rather than posing a threat. But that is going to be a 
long debate.
    I think there is a tendency on the part of some Russian 
leaders to overdramatize external threats as a tool of 
maintaining political control and discipline at home. And the 
system is not one which has all the checks and balances and 
instruments of accountability that we would like. So, a kind of 
xenophobic mentality has entered into the Russian 
consciousness--not just on the part of the leaders, but on the 
part of the people.
    So, this is going to be a continuing problem for us going 
forward.
    Mr. Coffman. Thank you, Mr. Chairman. I yield back.
    The Chairman. I thank the gentleman.
    The gentleman from Washington, Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman.
    Admiral, I do not want you to feel left out, so I had a few 
things for you.
    Actually, in your testimony you discuss some of the U.S. 
naval activity in the Black Sea region and the unforeseen 
increase in military activity in the region having to do with 
our humanitarian visits to Georgia, as opposed to anything 
else. Also, you discuss Russian military exercises in the 
region.
    Just on the idea of exercises with this reset taking place, 
and some questions about whether--you know, we do not see 
things as a zero-sum game; perhaps the Russians do.
    What objectives or goals would we hope to seek through some 
of these military exercises with the Russians in that context 
of how we are perceiving each other?
    Admiral Winnefeld. So, I believe you are asking about the 
military exercises with the Russians, not with Black Sea 
partners.
    Mr. Larsen. That is correct, yes. Sorry.
    Admiral Winnefeld. We believe that, whenever we are able to 
exercise with the Russians or another partner, that we gain 
common understanding, that we are able to better understand 
each other's operating principles and techniques, tactics and 
procedures, so that when we do have a common objective--for 
example, in piracy off of Somalia--that we can work more 
effectively together.
    And we are seeing the drawbacks of not exercising with 
them, frankly, on the naval side as much as we would like to in 
those piracy operations off of Somalia.
    The Russians have had a near-continuous presence of a 
destroyer crew--you know, a small ship out there--along with 
their logistics support ships. We have had collegial and 
friendly interactions with them. They have appeared at the 
shared awareness and deconfliction events, and, in fact, are 
great supporters of those events.
    But we still find that we do not have the kinds of 
connectivity and signaling techniques, and the like, that we 
would like to enjoy with them in order to make that counter-
piracy operation effective.
    One way of doing that is to exercise together. Another way 
of doing that is just to operate habitually together.
    And before the Georgia crisis, we did have intermittent 
operations in Operation Active Endeavor in the Mediterranean, 
which is a counterterrorist, counter-proliferation type of 
operation, in which a Russian ship would show up perhaps once a 
year, and we would enjoy some contact like that. And I think 
that sort of stretches across the board in land, air and sea 
domains in which it is healthy for us to exercise together.
    As I mentioned earlier, you have the opportunity to build 
personal relationships with individual Russian leaders, who may 
grow up someday to be important Russian leaders. And I think 
that is a very important interaction for us to have, because, 
as I mentioned, the sort of warm feelings and understanding you 
are able to achieve at that tactical exercise level are 
something we would like to percolate up into the higher levels 
where there tends to be a little bit more bureaucracy in 
scheduling meetings and that sort of thing than we would like 
to see from the Russia side.
    Mr. Larsen. Okay. Will you speak a little bit, then, to the 
idea that the Russians and the Chinese also have done separate 
military exercises recently?
    And I know some of us have pressed the previous 
Administration, and I imagine we will press this 
Administration, and make a request that we be observers at 
those exercises as well. And, of course, we have been turned 
down, I think, in the past for that.
    Can you talk a little bit about the relationship between, 
say, Russian military exercises with other countries, and that 
we are not participating in that we would like to participate 
in? Can we use these relationships to press that case?
    Admiral Winnefeld. I think that you make a good point. We 
are always seeking transparency in our relationship with 
whoever it is--Russia, China, and the like. And we have talked 
about inviting Chinese observers to certain exercises that we 
conduct. And we would love to be able to participate as 
observers in exercises that might be under the aegis of the 
Shanghai Cooperation Organization, or other events that Russia 
does with other people--other nations that it considers its 
partners.
    Transparency is good. It builds confidence on both sides 
that you understand the purpose of the exercise and the actual 
tactics, techniques and procedures that were used in the 
exercise to make sure that nothing is amiss. And we invite them 
to observe our exercises all the time. And they do not always 
appear. But the invitation is out there.
    So I think the fundamental principle is that transparency 
is good. We seek more of it. And I think we are meeting them 
more than halfway, and in the hopes that they will understand 
that it is in their interest to do the same.
    Mr. Larsen. Thank you.
    Thanks, Mr. Chairman.
    The Chairman. I thank the gentleman.
    Mr. Shuster.
    Mr. Shuster. That was quick.
    The Chairman. Yes.
    Mr. Shuster. Thank you very much, Mr. Chairman.
    Thank all of you for being here today. And I apologize if 
you have had this question asked before.
    I just was concerned about the Russians issuing a decree on 
opposing sanctions against manufacturers who sell arms to 
Georgia. I wondered if this will cause U.S. policy to change in 
supporting the Georgian military.
    Secretary Vershbow. I think this Russian announcement is 
unfortunate, but it will certainly not alter our policy. We 
think that Georgia, as a sovereign state, has not only a 
legitimate right to choose its security alliances, but also a 
legitimate right to have a military capacity to defend its own 
borders, and also to participate in multinational operations.
    So, we have developed a strategy of providing security 
assistance to Georgia, which will focus in the short term on 
helping raise the professional standards, helping them 
institute more high-quality defense personnel management 
systems, improving their training.
    But over time, we are prepared to consider the provision of 
defensive weapons to Georgia, as well. And we are also 
supporting their NATO aspirations and are helping them do the 
very arduous process of submitting their annual national 
program to NATO as they pursue their candidacy there.
    So, as I said, the Russian announcement is unfortunate, but 
it is not going to alter our policy.
    Mr. Shuster. That is good to hear.
    Also, is there any consideration--is the Administration 
considering to participate in the European Union monitoring 
mission that is going on in Georgia?
    Secretary Gordon. About that I would say that we think that 
is a critical mission. As you know, we lost the presence of the 
OSCE monitors in South Ossetia, because the Russians did not 
agree to a proposal that almost everyone else in the OSCE did. 
And we lost the U.N. presence in Abkhazia, because the Russians 
vetoed the follow-on agreement.
    And in the absence of those two missions, the European 
Union stepped up with more than 250 monitors. And we support 
that mission, because we think it is critically important that 
there be independent, objective monitors on the ground.
    The E.U. last week agreed to extend that mission for 
another year, and we are very pleased about that. No one has 
invited us to participate. We want to be supportive in whatever 
way we can.
    Mr. Shuster. Would that be something that we would 
consider, if somebody invited us to participate?
    Secretary Gordon. We will consider any way to strengthen 
efforts to make sure that there are appropriate, independent, 
international monitors on the ground in Georgia, yes.
    Mr. Shuster. And just in general, what is your assessment 
of the situation? I have spoken to some Georgians. They do not 
think it has gotten any better, and in some cases worse. Just 
your general observations on that situation in Georgia.
    Secretary Gordon. Well, the situation in Georgia is a 
troubling one. Russian forces remain in both Abkhazia and South 
Ossetia. Georgian territorial integrity and sovereignty is 
being violated.
    As the Vice President made clear in Georgia, we do not 
believe that there is a short-term or a military solution to 
this issue. But we will also not turn away from it. I think 
there, the Russians may hope that, in the absence of the U.N. 
and OSCE missions we would just say, okay, you know, too bad. 
We will walk away.
    On the contrary, we have brought it up at every occasion, 
including the President in Moscow, including the ongoing Geneva 
talks, and including through the support of the E.U. monitoring 
mission. We do not consider the situation resolved. We think 
Russia should implement the cease-fire agreements of August and 
September 2008, in support of Georgian territorial integrity.
    Mr. Shuster. Well, I am pleased to hear you say that.
    Ambassador, were you going to add to that?
    Secretary Vershbow. Nothing really much to add.
    We have not been asked yet, as far as the E.U. amendment is 
concerned. But I think we are considering the possibility, if 
we are asked.
    Mr. Shuster. Right. Well, I am pleased to hear that, 
because in dealing with the countries in that region, and the 
Ukraine, Azerbaijan, they are all very, very concerned about 
what America is going to do in regard to Georgia and Russia. 
And so, I think it is important that we stay strong with the 
Georgians.
    Secretary Gordon. If I might just permit myself to add in 
the context of staying strong with the Georgians, I have talked 
about how the President emphasized these important points, and 
the Vice President did when he was there last week.
    We have also, thanks to Congress' support, completed the $1 
billion assistance package to Georgia to help the country 
rebuild from the war. And that is already paying dividends in 
the Georgian economy and helping resettle refugees who were 
expelled.
    We have launched a commission following up on the U.S.-
Georgia strategic cooperation arrangement from last year, which 
met recently in Washington. As I noted, the Vice President has 
recently been to Georgia. The Deputy Secretary and I have been 
there twice.
    We are actively demonstrating our support for Georgia, even 
while reminding the Georgians that they need to make more 
progress in their own democracy, and that they need to avoid 
any provocative actions. I think our relationship with Georgia 
is very strong.
    Mr. Shuster. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Mr. Spratt, please.
    Mr. Spratt. Thanks very much for your testimony. I have 
been in and out, and may have missed this question. It may have 
been asked before.
    Basically, what is the status of our deployment of missile 
defenses in the Czech Republic and in Poland? And is there any 
discussion, or was there any discussion with the Russians of 
alternative locations or alternative means of accomplishing the 
same objective, but with different locations?
    Secretary Gordon. We did comment on this briefly earlier. 
And what was said was that we are reviewing our approach to 
missile defense in Europe.
    The President believes that we should do what is necessary 
to protect ourselves and our European allies from a growing 
threat of nuclear weapons and ballistic missiles. He has 
ordered a review of plans to deploy an X-band radar in the 
Czech Republic and interceptors in Poland.
    And that review is being driven by our perception of the 
threat from Iran and the technology. And we hope that that 
review will be done by the end of the year, so that we can move 
forward in the way that best would defend us and our allies.
    In terms of the Russians, what their discussion of it--what 
there has been discussion with Russia of--is ways in which 
Russia and the United States could cooperate on the issue of 
missile defense. Because as we have made quite clear, any 
missile defenses we deploy in Europe will not be directed at 
Russia. They are designed to deal with a different threat. And 
the size of deployments considered could not in any way 
threaten the Russian arsenal anyway.
    So, we have been open with the Russians, as the previous 
Administration was, in terms of exploring the possibility of 
cooperation that could help protect both of our countries. We 
have sent a delegation to Moscow several times.
    It is true the Russians continue to say that they do not 
want to talk about cooperation unless and until we give up or 
change our current plans. And we continue to make clear that 
that criterion is not acceptable to us.
    But we do think that we have a common interest in 
protecting ourselves from missile defenses. And if the Russians 
want to work with us on that, then we would be open to that.
    Secretary Vershbow. If I could just emphasize, we are 
looking at the question of European missile defense as part of 
the broader missile defense review. And the site in Poland and 
the radar in Czech Republic are among the options that are 
being considered, together with other options that might be 
able to perform the mission, as well.
    Mr. Spratt. Does your review include alternative locations 
and alternative defenses?
    Secretary Vershbow. We are looking at a range of options. 
It is really not appropriate to get into what those options 
are, but we are reviewing these internally. We are not engaged 
in any discussion with the Russians about alternative options 
at this point, until the review is completed.
    And as we have stressed, our conclusions will be based 
exclusively on the threat from Iran, the effectiveness of the 
systems and the cost. We want to see what is the best way to 
meet the real and growing threat from Iran to ourselves and to 
our allies.
    But we do, as Mr. Gordon said, believe that this is 
something that the Russians should see a common interest in. 
They, too, could be threatened by long-range ballistic missiles 
from Iran, and that there may be ways to connect with the 
Russians, once we have made our own conclusions, in terms of 
cooperation, whether it is shared early warning or joint 
testing initiatives, which have been pursued in the NATO-Russia 
framework in the past.
    Mr. Spratt. With respect to strategic arms limitation 
talks, would defensive systems be part of that?
    And, in addition, what are our objectives going into these 
talks? What are the broad objectives that we are seeking in 
terms of warhead levels and the mix of our weapons within our 
nuclear arsenal?
    Secretary Vershbow. As we stressed, defensive systems are 
not covered by--are not going to be covered by--the START 
follow-on agreement. It will deal strictly with limitations on 
strategic offensive arms, strategic nuclear arms.
    We and previous Administrations have recognized that there 
is a conceptual relationship between offense and defense, and 
there may be some reaffirmation of that principle. But that 
does not translate into any limitations on our ballistic 
missile defense systems.
    To the extent that the Russians are prepared to engage in 
possible cooperation on missile defense, I think we would 
pursue that in a separate forum which has yet to be 
established.
    But there is no linkage between limits on offensive systems 
and limits on defensive systems. But the limits that you have 
seen in the joint understanding for the START follow-on 
agreement reflect a range of possibilities. The specific levels 
still have to be negotiated.
    But before we made any proposals in this negotiation, we 
analyzed our strategic force requirements as part of the 
Nuclear Posture Review (NPR), which is still ongoing. As one of 
the initial thrusts of the NPR, we look for a strategic 
approach that could ensure stability at lower numbers, so that 
we could proceed with the START follow-on negotiations, given 
that the existing START Treaty expires in December.
    But the proposals that we put on the table were based on 
the NPR analysis. It was not the other way around. And the 
proposals maintain our policy and strategy objectives in terms 
of assuring our allies, dissuading competitors, deterring 
potential adversaries, and defeating adversaries if deterrence 
fails.
    So, the final result will have to be consistent with those 
principles as well. We are not necessarily willing to accept 
any number within the ranges that are in the joint 
understanding.
    The Chairman. I thank the gentleman.
    The gentleman from Missouri, Mr. Akin.
    Mr. Akin. Thank you, Mr. Chairman.
    And thank you to our witnesses and your bearing with us on 
the questions.
    I have got a couple of quick ones, yes or nos, and then I 
have a couple of longer ones. And, of course, we are all on the 
clock, so if you can help me with fairly short answers, I would 
appreciate it.
    First, are we going to continue to train and equip the 
Georgian military?
    Secretary Vershbow. Yes, we are. And in the short term, the 
Georgians have made an offer to send a battalion to Afghanistan 
starting next spring. And so, later this year, we will be 
engaged in helping to train that unit for----
    Mr. Akin. In that context, then. Okay. Thank you.
    And then, will the U.S. support NATO membership for Ukraine 
and Georgia?
    Secretary Gordon. We continue to support their NATO 
aspirations, and are working with them on becoming stronger 
candidates.
    As you know, last year NATO agreed to have commissions with 
both countries. And in the context of those commissions, we are 
working with them to strengthen their candidacies for NATO 
membership.
    But of course, they will only join NATO when there is a 
consensus in NATO that they will join.
    Mr. Akin. Got that. Good. Thank you.
    These are a little bit longer questions.
    You made a comment in terms of missile defense, that it is 
going to be based on the threat of Iran or North Korea? In that 
regard, are we limiting missile defense, that it is only going 
to be relative to two nations? Because I think my sense is that 
missile defense is good any time somebody lobs an ICBM at us.
    So, are we, in a way, trading off some of our missile 
defense when you say that it is specifically connected to North 
Korea and Iran?
    Secretary Vershbow. Well, I think the focus, in terms of 
what are the most immediate threats we see looming, are the 
missile programs of North Korea and Iran. And certainly, the 
focus in terms of European missile defense is Iran, which has 
tested a 2,000-kilometer, medium-range ballistic----
    Mr. Akin. We all understand that. My question is, though, 
we build missile defense--at least in my opinion, I vote to 
fund it. And I do that, because not only North Korea and Iran, 
but somebody else that makes some over-sized skyrocket with a 
nuclear weapon on it, we like to shoot it down from that 
country, too.
    Secretary Vershbow. I think we are obviously trying to be 
prepared for any threat, anticipated or not. And of course, an 
accidental launch via a single missile from a country that is 
not a rogue state is something that we should be prepared for, 
as well.
    Mr. Akin. So, we are not in any way negotiating away our 
use of missile defense for any kind of missile that is shot at 
us then?
    Secretary Vershbow. No. There is no negotiation going on 
that would give away our missile defense option.
    Mr. Akin. Okay. The second thing is on the limits on 
nuclear warheads. Almost every treaty that I know of that we 
ever got with the Russians, they always cheated on all of them. 
Do we have verification that that is not going to happen here?
    Secretary Vershbow. That is going to be one of the many 
challenges in completing this treaty, and we have a very short 
time period to do so.
    But we are going to probably use many of the verification 
provisions from the soon-to-be-expired START Treaty. But we may 
need to be more ambitious under this agreement, particularly 
given, you know, the margin of tolerance may be lower as you go 
to lower levels under these kinds of agreements.
    Mr. Akin. Because it does seem like it is a pretty hard 
thing to verify, whether they have got some arsenal of them 
now, and we do not know how many they had before, so then it 
makes it hard.
    I guess the last thing--I have only got about a minute-and-
a-half, and I was trying to be a good steward of time.
    If you could, one thing that you did not include in your 
testimonies that is of interest, and it would probably be of 
interest to other members of the committee. And that would be, 
if you could just describe sort of in broad brush, what is the 
nature of the way Putin and Russia has--you know, was 8 years 
ago with us--that relation degenerated to some degree.
    With a new President, hopefully, we are getting kind of 
back on a talking--I am a big fan of the inter-military kind of 
things.
    Could you just give us a broad brush as to where you think 
we are in relation with them? And that is the last of my 
questions. Thank you.
    Secretary Gordon. Thank you.
    I think I said in my opening comments that we saw the 
relationship that we inherited as one that was deteriorating, 
which, frankly, is accurate. And when the Cold War ended and 
the first few years after that, I think we had hopes that by 
now the relationship with Russia would be much different from 
what it is. We had hopes that by now, NATO might have--sorry, 
Russia--might have gotten over its aversion to NATO enlargement 
and been more willing to work with the West.
    I think one thing that has happened, to be very brief about 
it----
    Mr. Akin. Was that their biggest--NATO enlargement--was 
that the biggest thing that rubbed them the wrong way?
    Secretary Gordon. I think it stands in for a greater point, 
which is simply America's role in the world.
    I think when the Cold War ended, the Russians believed and 
hoped that both sides would stand down, and we would be no 
greater a power than they were, and our equality would be 
maintained. But that, of course, was not realistic, and the 
United States played an important role in the world. And it 
frankly became the sole superpower, rather than having two 
superpowers.
    And it has been very difficult for Russia to get used to 
that world. And again, I think for many Russians, it is 
something that they have resented. And therefore, in particular 
in the past few years, as high oil prices have fueled a 
resurgent, or had fueled a resurgence of the Russian economy, 
some Russians wanted to take advantage of that and do more to 
try to stand up to the United States.
    I would add, unfortunately, the period when Russians 
perceived Russia to be down coincided with the period when 
Russian democracy was being established. And the period in 
which many Russians perceived Russia to be rising coincided 
with, in some ways, a backing off of democracy. And that, 
unfortunately, has led a number of Russians to equate the two, 
which we do not think is the case.
    The Chairman. I thank the gentleman.
    The gentleman from Arkansas, Dr. Snyder.
    Dr. Snyder. Thank you all for being here.
    Secretary Gordon, I would just add one comment. I think, 
during the period in which Russia was down in the early days of 
the post-Cold War period, I think it is fair to say that, 
retrospectively, the United States clearly could have done more 
to help what many people perceived to be as a floundering 
Russian economy.
    I mean, having personally been there, and I saw people out 
and standing on the side of the road, middle-aged women with 
brand new green hose. That was their pay from the factory. If 
they could sell it on the road, that was their payment. I mean 
there were really some things that we could have stepped 
forward on to assist them, and did not.
    I wanted to ask one missile defense question.
    Maybe I will direct this to you, Mr. Vershbow.
    I was talking with one of my Russian friends recently, who 
made the point that I think most people agree with. It is that 
Russia has nothing to fear from any missile defense system we 
put in, and they know it. They know that they have nuclear 
missiles in places that we do not know where they are at, and 
that this kind of a system really is not aimed at Russia. And 
they know that, if we ever thought it was, it just would not be 
the facts of the situation.
    But this man made the point, he said, ``What makes us 
apprehensive is that there will be people in your power 
structure that will believe it can do more than it is capable 
of doing.''
    And we have had--you know, from their perspective, they 
have not agreed with all of the foreign policy decisions made 
in the last decade-and-a-half, and would hate to see some of 
these foreign policy decisions of the future based on some 
misbelief that some of this limited system could somehow allow 
for some American action that we might not take otherwise, if--
anyway, I probably made the point.
    How do you respond to that kind of--that perspective?
    Secretary Vershbow. That is a very good question, 
Congressman.
    And I think you are correct that, objectively speaking, 
most Russians--particularly their experts who really know the 
capabilities of our system--recognize that it is not a threat 
to the Russian strategic deterrent, as they claim. In fact, it 
is not solely because they have mobile systems and submarine 
launched systems that could be survivable.
    But actually, if you look at the geography of our systems, 
if we go forward with the site in Poland, are not physically 
capable of intercepting the vast majority of Russian strategic 
missiles heading toward the United States, because those go 
over the North Pole. And our missiles would be a day late and a 
dollar short.
    So, they are, clearly, optimized to deal with threats such 
as those from Iran, from the south. And hopefully, through this 
joint threat assessment, we can begin to chip away at some of 
the Russian misperceptions.
    But sometimes we hear that, well, there are only 10 
missiles today, but tomorrow we could wake and there will be 
1,000. But still, there are defensive systems in a position 
that, even if there were more than 10----
    Dr. Snyder. Well, I am running out of time, and I have a 
second question.
    But I mean, they do not believe that, no matter how many 
missiles we put in that area, that it would be a threat to 
their ability to overwhelm us. But it still deals with the 
issue, their apprehension, that there may be people that 
replace Admiral Winnefeld, that will actually think it can do 
more than it is capable of.
    And maybe I will just leave it as a point to be made. It is 
a more difficult kind of reassurance to give.
    Secretary Vershbow. I would certainly agree with you that 
those kinds of views exist within the Russian elite. There is a 
tremendous amount of paranoia and worst-case assessments.
    And so, we have to continue to chip away at this through 
our dialogue, and by trying to bring the Russians into the 
architecture to some degree and make this a cooperative 
venture.
    Dr. Snyder. It may be helpful for people like you to remind 
all of us that, in fact, that system does not have the ability 
to do to anything to Russian systems.
    My final question--I am running out of time, Professor 
Vershbow, so I will direct it to you--where do you think we are 
right now with regard to our Russian language speaking skills 
within the Foreign Service?
    And Secretary Gordon, if you have any thoughts, too, as far 
as Foreign Service officers with Russian language skills. What 
is our current need, gap, and where we are with getting the 
number of Foreign Service officers with Russian language 
skills?
    Secretary Vershbow. Well, my impression is that we are 
doing pretty well. And the State Department has a very good 
Russian language program, which, through an intensive course of 
10 months, does prepare people to operate professionally in 
Russian--in Moscow and in some other posts in the former Soviet 
Union where Russian is still used.
    But we are seeing fewer and fewer people coming out of the 
universities having studied Russian. It is not as popular as it 
used to be.
    But in terms of the overall deficits in language skills, I 
think we are still more worried about Chinese and Arabic 
speakers, Farsi speakers, than we are about Russian speakers.
    Dr. Snyder. Thank you.
    The Chairman. I thank the gentleman.
    Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    And Admiral Winnefeld, I want to thank you for your 
service, supporting our ground troops in Afghanistan and Iraq.
    I also want to point out, as we are discussing Russia, that 
20 years ago this summer, no one projected that in about three 
months that the Berlin Wall would collapse. There were no 
projections, truly, of the extraordinary and wonderful 
reunification of Germany. The projections of Ronald Reagan, 
that the Soviet Union would end up in the ash heap of history, 
did come to fruition.
    I am an optimist. And I am really hopeful and I believe, 
that through mutual contacts, freedom, democracy, free markets 
will prevail. And I have visited Russia a number of times. Each 
time I am impressed by the friendship that the Russian people 
have for the American people.
    And I have worked very closely promoting the new Rotary 
Clubs across the country giving opportunity for Russians to 
interact with people around the world, chambers of commerce. 
And then I am particularly interested in military-to-military 
contacts, so that there are not misunderstandings. This is 
mutually beneficial to Russia, to America.
    And so, Admiral, you have mentioned this. Could you go a 
little bit further on specific contacts that we have?
    Admiral Winnefeld. Sir, I would be happy to.
    One of the key points that you raise is the importance of 
people meeting people. And that is why earlier this year, when 
the tensions really had not subsided as much as they have to 
the point they are today, we made the difficult decision to 
allow the Russians to come over and participate in what we call 
the Harvard generals program, where a number of them come over 
and are able to visit the United States.
    They attend Harvard for a couple of weeks, and it is really 
just an exchange. And in fact, it is really just Russian 
generals going to Harvard for two weeks, giving them a great 
opportunity to see America, what we are like and to perhaps put 
some of their predispositions behind them.
    And we carry that through in our military-to-military 
relationship any way that we can. And I can list some of these 
events for you.
    Obviously, the joint staff talks that I mentioned in my 
opening statement will occur this October, we are hopeful. And 
that would lay the groundwork for a lot of the planning that we 
would do to really get the detail into the relationship that we 
are talking about.
    We are hopeful that their chief of defense or some 
representative will show up at the Pacific Commanders 
Conference that he is holding for all Asian area chiefs of 
defense, and that would be a great thing for them to be a part 
of. They participate in the share awareness and understanding 
and deconfliction piracy pieces.
    So, they are out there operating with us, and they see U.S. 
officers working with other countries' officers in a very 
cooperative, collegial way. And they want to be a part of that. 
They want to act like that when they see it.
    We will have a counter-hijacking exercise with them, Navy 
staff talks. The International Sea Power Symposium up in 
Newport, they will attend. And Naval War College and Russian 
Naval Academy exchanges, where for a couple of weeks they will 
have young people coming over.
    And these people are going to grow up to be leaders 
someday, particularly if they have the credibility that comes 
with perhaps having visited the United States for a while.
    Our port visits are very important to us. We have had two 
to Vladivostok in just the last couple of months. The Russian 
Military Academy is going to have an exchange with Fort 
Leavenworth. The air staff talks are going to occur.
    We are going to try to set up a number of conferences at 
the Marshall Center in Europe. West Point and Russian Ground 
Forces Academy cadet exchange, which is not a full-year 
program. Again, it is one of these 2-week things.
    The Strategic Command Deterrence Symposium, so they can get 
a sense for how we view deterrence, and perhaps the missile 
defense may be not part of that as much as they may think. And 
then the EUCOM Colonels Working Group, where they roll up their 
sleeves and get down to what the program would be for next 
year.
    And we are hopeful that all of this will happen in this 
calendar year. So, that is a pretty ambitious program. And we 
are hoping to expand that cooperation into the next year.
    And our challenge is always with the Russian military in 
doing these sorts of things, they have, believe it or not, a 
more cumbersome bureaucracy than we do. Just to get decisions 
made on who can show up for a conference is a challenge.
    And that is why I speak of percolating this trust up 
through their ranks, so that it is a little easier for them to 
make these kinds of decisions, a little more natural, a little 
less suspicion and distrust, so we can expand this kind of 
cooperative activity.
    Mr. Wilson. Well, I really appreciate it. You have taken 
virtually all of my time, but that is good, because this is 
good, people-to-people contact.
    And I just want to commend Secretary Vershbow for your 
service as ambassador to Moscow. You know the beautiful culture 
and how we should be working together. We have a great shared 
culture.
    But thank you, and I appreciate the opportunity to be with 
you today. Thank you for your service.
    The Chairman. Ms. Shea-Porter, please.
    Ms. Shea-Porter. Thank you.
    Mr. Gordon, you said that the U.S. and Russia affirmed 
their commitment to increase assistance provided to the 
government of Afghanistan developing the capabilities of the 
Afghan National Army and police.
    Now, I was there in May, and I know that Afghanistan has a 
lot of problems--corruption, lack of trained personnel, et 
cetera.
    But what do you perceive the role of Russia to be there? To 
do exactly what?
    Secretary Gordon. We would be happy for Russian assistance 
in developing the sort of stable Afghanistan that we are trying 
to seek.
    The statement that you are alluding to there was actually a 
Russian initiative. They came to us and said, ``We have a 
common interest in Afghanistan. We would like to help your 
efforts to stabilize Afghanistan. And we would like to show 
that we have this common interest.''
    So, they proposed a joint statement on Afghanistan along 
the lines that you cited from. And we were more than happy to 
agree with that, because Russia--as I believe one of my 
colleagues alluded to earlier--has the same interests that we 
do in stopping extremism and drug-running out of Afghanistan. 
And if they can help us deal with that, sharing intelligence 
and dealing with those responsible, then we welcome it.
    Ms. Shea-Porter. Well, they had many years there, as you 
know. And I am not sure that the Afghans would welcome this.
    Are you talking about a physical presence there? Or are you 
just talking about providing monetary help, personnel? Could 
you tell me what you see their role as?
    Secretary Gordon. Well, we will have to look at what role 
could be constructive. A physical presence is probably unlikely 
for the reasons that you say.
    But there are all sorts of porous and dangerous borders, 
and people coming back and forth. And the Russians do have some 
intelligence on Islamic extremists who go back and forth to 
Afghanistan. So, that is the type of help that I am referring 
to.
    Ms. Shea-Porter. Do you see them as training the Afghan 
police or the Afghan military?
    Secretary Vershbow. Congresswoman, I think you are right 
that a military presence by the Russians is probably not 
something that the majority of the people in Afghanistan would 
be welcoming.
    But they have participated in some counternarcotics 
programs, including setting up an office of their federal 
narcotics service in Moscow to help coordinate assistance. And 
they are doing some training of Afghan police at a center in 
Moscow, at Domodedovo, which has been going on in the NATO-
Russia framework.
    So, their contributions may be small and narrowly focused, 
but they are meaningful, and we think more should be 
encouraged. But I think they have done some infrastructure 
projects, as well, and repairing some Soviet era bridges and 
tunnels that are improving access for commercial goods in and 
out of Afghanistan.
    So, again, military presence is not something we are 
talking about, but more on the civilian side.
    Ms. Shea-Porter. Now, as they train the Afghan National 
Army and police, we have different philosophies very often.
    So, what kind of control would we have? How would we know 
for sure that what the Afghan military was learning was 
something that we thought was appropriate in terms of, say, 
democracy or the way that you treat the civilians, et cetera?
    I just want to know what our thinking is on that and how 
hands-on they will actually be.
    Secretary Vershbow. I do not know enough about the details 
of these programs. We will have to get back to you on that.
    But I know that the terms of reference were drawn up pretty 
carefully by NATO and Russia within the NATO-Russia Council. 
So, I think we have--I am sure we have--a good idea of exactly 
how the Russian trainers are operating and what kind of skills 
they are focusing on.
    Ms. Shea-Porter. I would appreciate it.
    Secretary Vershbow. In fact, during the summit, some of our 
delegation had a chance to visit this training center. So, 
there is good transparency.
    Ms. Shea-Porter. And I would appreciate it, if there is 
further information, that you could share it with me.
    Thank you, and I yield back.
    The Chairman. I thank the gentlelady.
    The gentleman from Colorado, Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman.
    For Mr. Gordon, I understand the department's Nuclear 
Posture Review is not expected to be complete until the end of 
the year. According to an online DOD terms of reference 
factsheet dated June 2nd of this year, the 2009 Nuclear Posture 
Review, quote, will establish U.S. nuclear deterrence policy, 
strategy and force posture for the next 5 to 10 years, and will 
provide a basis for the negotiation of a follow-on agreement to 
the Strategic Arms Reduction Treaty.
    Now, with that in mind, how can the Administration or the 
department commit to specific nuclear force reductions prior to 
the conclusion of the NPR? Isn't that putting the cart before 
the horse?
    Secretary Vershbow. Congressman, as the Pentagon 
representative, let me respond.
    We are certainly putting the NPR first, and the START 
negotiations second. And within the NPR, we are looking at a 
whole range of alternative strategic approaches.
    But in view of the fact that the existing START Treaty 
expires in December, we made it an initial priority within the 
NPR coming up with a strategic approach that could ensure 
stability at somewhat lower numbers, so that we could engage in 
the START follow-on negotiations and try to complete it by 
December.
    But the alternative approach, which is the basis for the 
proposals that we have put on the table, has been judged within 
the NPR to maintain our policy and strategy objectives of 
assuring our allies, dissuading all competitors, deterring 
potential adversaries, and defeating those adversaries if 
deterrence fails.
    So the NPR goes on, and its conclusions will be released 
later in the year. And continuing analysis is going on in terms 
of longer term scenarios, in which we might, in a follow-on to 
the follow-on treaty, consider even deeper cuts.
    But we did not put the cart before the horse. We have done 
the analysis within the NPR process before putting any 
proposals regarding the warheads levels or the delivery 
vehicles----
    Mr. Lamborn. Okay. If I hear you correctly, you have said 
that you have agreed to lower numbers. You used that term, 
lower numbers. And yet, the NPR is not done yet.
    Secretary Vershbow. Again, lower numbers than in the START 
or the Moscow treaty, but numbers which we believe can fulfill 
our deterrence objectives during the term that this new treaty 
will be in effect, a 10-year period.
    Mr. Lamborn. Well, I guess I see a contradiction there. But 
let me ask a follow-on question.
    I am deeply concerned that in considering deep reductions--
possibly deep reductions--in our strategic delivery vehicles 
from 1,200 down to a level as low as 500. And my concern is 
because the bipartisan Congressional Commission on the 
Strategic Posture of the United States, led by Drs. Perry and 
Schlesinger, believe that, quote, the triad of strategic 
nuclear delivery systems should be maintained. And my concern 
is that levels as low as 500 could threaten the triad.
    Isn't there a contradiction between maintaining our nuclear 
triad and reducing delivery systems to the 500 level?
    For anyone of you.
    Admiral Winnefeld. I would tell you that the NPR is 
considering all of that in great rigor and detail, and that, as 
Secretary Vershbow mentioned, we advanced the analysis on that 
to inform the START negotiation process. And it would be, of 
course, inappropriate to get into the details of the START 
negotiation process or the details of the NPR at that point. 
But I can assure you, the analysis is rigorous.
    And I would also suggest that, whenever you see a band 
presented in a document, it is generally because one side is 
sort of on one end of that band, and the other side is on the 
other end.
    So, we are really looking at this responsibly. We are 
looking very closely. The triad has been a strength of our 
nuclear deterrent for many, many years, and it would be 
unlikely that we would consider, you know, threatening the 
fundamental nature of what our triad is and how it is a force 
deterrence.
    But again, all this and the analysis has advanced. It is 
rigorous. I would tell you the NPR is the most advanced of all 
the studies we are doing right now, because we knew we needed 
to get it done. And there was already a lot of pre-existing 
analytical detail that we leveraged, that has been done over 
the years and very recently.
    So, as worm's eye view of the apple here, I am very 
confident that it is a healthy process.
    Mr. Lamborn. Okay. I appreciate those answers.
    Thank you.
    The Chairman. I thank the gentleman.
    The gentleman from Rhode Island, Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    Gentlemen, I want to thank you for your testimony here 
today, and thank you for your service to our country.
    I was in an Intelligence Committee meeting at the start of 
this, so I apologize if my question has already been addressed.
    But for Secretary Vershbow, the Department of Energy's 
National Nuclear Security Administration and DOD's Cooperative 
Threat Reduction Program have generally enjoyed cooperation, 
access and cost-sharing issues with regard to nonproliferation 
efforts in Russia.
    Could you elaborate on the successes and the challenges of 
these cooperative efforts, and kind of give us an update on 
where we are and, say, what is still left undone?
    Secretary Vershbow. Okay. Well, I will give you the general 
answer, Congressman.
    I am not in the office that is responsible for those 
programs, but I think we have made enormous progress since 
those programs were initiated in the immediate years following 
the end of the Cold War. And I visited many of the sites when I 
was ambassador, in terms of creating better security at the 
Russian nuclear facilities, helping now begin the destruction 
of the Russian chemical weapon stocks at the Shchuchye 
facility, which I think began operating this year.
    We have basically completed most of the major 
infrastructure projects in terms of storage security upgrades 
that were envisaged by the program. And we are now beginning to 
broaden the focus of the CTR program to address problems in 
some other countries. And in this regard, the Russians are now 
becoming a partner and contributing even some of their own 
resources to these programs.
    So, that is, I think, the best I can give you today, 
Congressman. I do not have all the chapter and verse on the 
state of play on some of these programs.
    Mr. Langevin. Thank you.
    For Secretary Gordon and Admiral Winnefeld, with Iran's 
recent satellite launch and ongoing development of its nuclear 
program, the threat to regional stability obviously continues 
to grow. This threat obviously affects not only the Middle 
East, but Europe and Asia, as well. Russian arms transfers and 
nuclear cooperation with Iran are also considered destabilizing 
by many countries in the Middle East and elsewhere in the 
international community.
    How does Russia's relationship with Iran affect its ties 
with such regional powers as Israel, Saudi Arabia and Iraq? And 
are there more areas for cooperation with the Russians that we 
have not yet explored?
    Secretary Gordon. First I would simply say we share your 
concern about the potential proliferation threat from Iran. And 
as I noted earlier, there was probably no subject that 
President Obama raised and discussed more intensively in Moscow 
than this one.
    You ask how it affects, if I understood correctly, Russia's 
relations with other powers in the region. And I think it is 
accurate to say that we are not the only country in the world 
concerned about Russian cooperation with Iran, whether it be 
arms sales or nuclear cooperation.
    The countries you mentioned, all of those--Iraq, Saudi 
Arabia and Israel, and others in the Gulf and elsewhere--are 
very concerned about a potential Iranian nuclear weapon and 
concerned about any country, including Russia, helping them. 
So, I do think that Russians know and should know that there 
are consequences to any relationship with Iran that it might 
have.
    As I said earlier, I think we have seen signs of 
cooperation with Russia on this issue, and then other areas 
where they have been less helpful. And we are obviously doing 
all we can to move them back towards the former category.
    I am sorry. There was a last element of your question that 
I----
    Mr. Langevin. Well, can you elaborate on the first part, 
though? I want to know, have we seen any tangible fallout from 
Russia's continued cooperation with Iran with respect to how 
they interact with other nations in the Middle East?
    Secretary Gordon. Well, not dramatically, because other 
nations, like we, are watching very carefully what Russia does. 
And no doubt, certain Russian actions would provoke a real 
problem in their relationship with those countries or with us.
    But I think Russia has refrained from moving forward with 
what would be really considered more destabilizing arms 
transfers to Iran, or steps in the nuclear area that would be 
provocative to us and others.
    Mr. Langevin. Before my time runs out, the second half of 
my question. Are there areas of cooperation with the Russians 
that have not been explored?
    Secretary Gordon. We are constantly asking ourselves how to 
best work with the Russians.
    Are there any that have not been explored? Not that we are 
aware of. But obviously, we have not had total success on this 
issue, so we need to keep doing whatever we can to try to get 
the Russians where we are.
    Mr. Langevin. Thank you.
    The Chairman. I thank the gentleman.
    Mr. McKeon and, I believe, Mr. Shuster have additional 
questions.
    Mr. McKeon, the floor is yours.
    Mr. McKeon. Thank you, Mr. Chairman. Mine is just a short 
follow-up.
    If the Administration does not intend to--and this came up 
in earlier questions--to link missile defense with START, then 
why include a provision in the joint understanding to address, 
and I quote, the interrelationship of strategic offensive and 
strategic defensive arms?
    Secretary Gordon. The President addressed this issue quite 
clearly in Moscow.
    The provision, the reference that you allude to, is 
actually a standard reference in previous arms control 
agreements as well. It is in the START agreement. It is in the 
Strategic Arms Limitation Treaty (SALT) agreement.
    And it acknowledges, as Assistant Secretary Vershbow 
suggested earlier, that we do accept that there is some 
theoretical, conceptual relationship at some level between 
offensive weapons and defensive weapons.
    What the President made quite clear in Moscow, however, is 
that, A, the START follow-on agreement is only about offensive 
weapons; and, B, the type of defenses we are talking about in 
Europe are just not relevant to the types of numbers we are 
looking at in an arms control agreement with Russia.
    We are talking in terms of European missile defense about 
sites, as discussed earlier, that could deal with a handful of 
missiles coming from a country like Iran. That in no way 
threatens the numbers that, even at the lower end of the 
spectrum, that we are talking about from Russia.
    So, again, the President was quite clear with the Russians 
on this, that even if this follow-on agreement should include a 
provision talking about this potential conceptual relationship, 
as previous strategic arms limitations agreements have done, it 
is not relevant to our discussion about European missile 
defense. And we are quite clear about that. And it will not 
change between now and when the treaty is negotiated.
    Mr. McKeon. And you are confident that, even though we put 
it in there, we understand that it is not going to be part of 
it, that the Russians have the same understanding?
    Secretary Gordon. I can only speak for our side, and can 
reassert that the President made that quite clear.
    Mr. McKeon. Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman.
    Mr. Shuster, wrap it up.
    Mr. Shuster. Thank you, Mr. Chairman.
    Just back to Georgia for one final question to the admiral.
    I wondered if you might talk a little bit about the 
training and equipping of the Georgian forces. Many are 
concerned that we are not doing enough, and that they believe 
that Russia is not done in Georgia, and they are going to wait 
for another opportunity.
    So, can we do more to train and equip them to deter the 
Russians from making another incursion deeper into Georgia?
    Admiral Winnefeld. I would like to give you a summary of 
what we are doing.
    We have recently concluded a couple of exercises with them. 
One is--and you may well be aware of these, but I will mention 
them anyway--Cooperative Longbow and Cooperative Lancer. And 
Cooperative Longbow was an exercise--multinational brigade land 
staff, sort of a staff ex, if you will, a command post 
exercise. And it also involved air integration training with 
the Georgians, which is something that they definitely needed.
    A lot of participants--NATO countries and several other 
partner countries, including Azerbaijan, Bosnia-Herzegovina, 
the former Yugoslav Republic of Macedonia--and I won't list 
them all. But it was a good, successful exercise.
    And then, that was followed by Cooperative Lancer, which 
was a live-fire exercise with many of the same players to 
promote interoperability with Partnership for Peace countries, 
and the like.
    And it goes without saying that whenever we do an exercise 
like this--and this was sort of a crisis response exercise--
that it is going to improve the Georgian military. And our 
principal focus right now is on organization and training of 
that military. EUCOM has done an assessment, has looked at 
where their shortfalls are in that area, and we are trying to 
address them.
    At the same time, as Ambassador Vershbow mentioned, I 
believe, they are going to deploy a battalion to Afghanistan. 
And we are going to help them train for that deployment.
    Now, this is a counterinsurgency operation. But again, it 
goes without saying, that any exposure they have to our 
tactics, techniques and procedures, writ large, is going to 
help their military become more proficient. And this is 
probably a two-year deployment that they are going to take in 
six-month chunks, so that a lot of Georgians will be exposed to 
how we operate on the ground.
    So, I think, in general, they are getting a lot of exposure 
to us, and it is going to raise them up as that progresses.
    Mr. Shuster. What about the equipment? Is there anything we 
can----
    Admiral Winnefeld. The equipment--I do not believe that we 
are--we did return their equipment from Iraq, as they 
requested. And I believe we are still exploring what the nature 
of our equipment support to the Georgians would be.
    Mr. Shuster. Thank you very much.
    The Chairman. If there are no further questions, let me 
thank you gentlemen for this very excellent hearing. It has 
been very enlightening, and we appreciate it. We look forward 
to seeing you again.
    The meeting is adjourned.
    [Whereupon, at 12:11 p.m., the committee was adjourned.]
?

      
=======================================================================



 
                            A P P E N D I X

                             July 30, 2009

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             July 30, 2009

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] 53397.001
    
    [GRAPHIC] [TIFF OMITTED] 53397.002
    
    [GRAPHIC] [TIFF OMITTED] 53397.003
    
    [GRAPHIC] [TIFF OMITTED] 53397.004
    
    [GRAPHIC] [TIFF OMITTED] 53397.005
    
    [GRAPHIC] [TIFF OMITTED] 53397.006
    
    [GRAPHIC] [TIFF OMITTED] 53397.007
    
    [GRAPHIC] [TIFF OMITTED] 53397.008
    
    [GRAPHIC] [TIFF OMITTED] 53397.009
    
    [GRAPHIC] [TIFF OMITTED] 53397.010
    
    [GRAPHIC] [TIFF OMITTED] 53397.011
    
    [GRAPHIC] [TIFF OMITTED] 53397.012
    
    [GRAPHIC] [TIFF OMITTED] 53397.013
    
    [GRAPHIC] [TIFF OMITTED] 53397.014
    
    [GRAPHIC] [TIFF OMITTED] 53397.015
    
    [GRAPHIC] [TIFF OMITTED] 53397.016
    
    [GRAPHIC] [TIFF OMITTED] 53397.017
    
    [GRAPHIC] [TIFF OMITTED] 53397.018
    
    [GRAPHIC] [TIFF OMITTED] 53397.019
    
    [GRAPHIC] [TIFF OMITTED] 53397.020
    
    [GRAPHIC] [TIFF OMITTED] 53397.021
    
    [GRAPHIC] [TIFF OMITTED] 53397.022
    
    [GRAPHIC] [TIFF OMITTED] 53397.023
    
    [GRAPHIC] [TIFF OMITTED] 53397.024
    
    [GRAPHIC] [TIFF OMITTED] 53397.025
    
    [GRAPHIC] [TIFF OMITTED] 53397.026
    
    [GRAPHIC] [TIFF OMITTED] 53397.027
    
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             July 30, 2009

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. SHUSTER

    Mr. Shuster. Speaking at the Ukraine House exposition center on 
July 22, 2009, VP Biden countered Russian claims made following their 
War with Georgia by stating, ``We recognize no sphere of influence, or 
no ability of any other nation to veto the choices an independent 
nation makes as to with whom and under what conditions they will 
associate.'' Does this statement apply to all Former Soviet States and 
Russia's neighbors and what actions is the Obama Administration willing 
to take to uphold this position?
    Secretary Gordon. Both the President and Vice-President have made 
clear that the United States rejects any notion of a country having a 
``sphere of influence'' or declaring they have ``privileged relations'' 
with other nations. We continue to support the sovereignty, territorial 
integrity and independence of Russia's neighbors, as well as their 
sovereign right to make their own choices about their defense and 
alliance relationships. The President has addressed this issue very 
directly and clearly in his discussion with his Russian counterpart, 
and noted that we will not paper over our differences on these issues 
even as we seek to cooperate in areas where it is in both countries' 
interests. The United States continues to support NATO enlargement and 
the aspirant countries working to meet NATO's performance-based 
standards for membership. We reject zero-sum thinking regarding Russia 
and its neighbors, and believe that our good relations with Russia and 
with its neighboring countries are not mutually exclusive.
    Mr. Shuster. How does the Obama Administration plan to encourage 
Russia to comply with its obligations under the Six Point Peace Plan 
with Georgia and prevent loose interpretations of the agreement that 
violate the intent of the agreement?
    Secretary Gordon. The United States calls on all states to uphold 
their commitments under numerous UN Security Council resolutions to 
support Georgia's territorial integrity and sovereignty. We continue to 
press the Russian Government to fulfill its August 12 Ceasefire 
Commitments to allow humanitarian access to Abkhazia and South Ossetia, 
to pull back their troops to positions held prior to the outbreak of 
hostilities, and to continue its engagement in the ongoing Geneva 
talks. The United States is actively working with the UN, OSCE and EU 
to restore an adequate monitoring presence in the conflict zones and 
maximize the participation of the international community in promoting 
human rights and the unhindered provision of humanitarian aid in all of 
Georgia. We are also working to convince the Russians to revisit their 
decision to block the UN Observer Mission in Georgia and the OSCE 
Conflict Prevention Center. We support the efforts of the EU Monitoring 
Mission, welcome the Incident Response Prevention Mechanism talks which 
have aided in lowering tensions in the region, and encourage Russia to 
weigh on South Ossetian and Abkhaz authorities to cooperate fully in 
those talks.
    Mr. Shuster. Since Russian military doctrine identifies NATO's 
eastward enlargement as a threat to its National Security because 
Former Soviet States have joined or are seeking NATO membership, how 
will this affect Russian/NATO relations?
    Secretary Gordon. The United States and our NATO Allies are 
committed to upholding Article 10 of the Washington Treaty, which 
states that ``The Parties may, by unanimous agreement, invite any other 
European State in a position to further the principles of this Treaty 
and to contribute to the security of the North Atlantic area to accede 
to this Treaty.'' As the President has made clear, we also stand by the 
principle that all states have a right to choose their own Alliances, 
and no country should have a ``sphere of privileged interests.'' At the 
same time, we seek areas for practical cooperation with Russia in the 
NATO-Russia Council on such issues as counter-narcotics, 
counterterrorism, and Afghanistan, to name only a few. It also means 
engaging with Russia in a broader security dialogue in which we seek to 
reject zero-sum thinking about security in Europe and Eurasia. We 
believe NATO Allies and Russia both have an interest in cooperation, 
and we will continue to pursue practical cooperation and engage with 
Russia in a broader dialogue about European security while maintaining 
NATO's principle of an open door.
    Mr. Shuster. The transit agreement made with Russia on July 6th 
allows the U.S. to move troops and critical equipment to resupply 
international forces in Afghanistan and to bring needed supplies to the 
government and people of Afghanistan, potentially saving $133 million 
annually, but at what cost is this agreement made to the strategic 
flexibility of United States response to any Russian actions or 
aggression during a crisis without having ``troops or critical 
equipment or supplies'' delayed, halted, or detained in transit to 
Afghanistan?
    Secretary Gordon. The transit agreement provides the United States 
with an additional avenue in the Northern Distribution Network for the 
supply of the international mission in Afghanistan. If we were to lose 
access to this avenue, we would continue to utilize the non-Russian 
routes we have heretofore been using to move supplies to Afghanistan. 
Beyond the material benefit to our resupply efforts, this agreement 
also serves as an example of the potential for cooperation with Russia 
and underscores the strategic importance of success in Afghanistan to 
both our countries. We look forward to working with Russia bilaterally 
and in multilateral fora towards a stable, prosperous Afghanistan.

                                  <all>

</pre></body></html>
